No.

IN THE
SUPREME COURT OF THE UNITED STATES

ERIC LUCAS — PETITIONER
VS.
STATE OF FLORIDA — RESPONDENT

From The Florida Fifth District Court Of Appeal
INDEX
FOR PETITION FOR A WRIT OF CERTIORARI

ERIC LUCAS
South Bay Correctional & Rehabilitation
Facility
1

RECEIVED
JUN - 8 2021
OFFICE OF THE CLERK
bUf-REME COURT. U.S

i

f

Case: 19-14394

Date Filed: 05/08/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14394-D
ERIC LUCAS,
Petitioner-Appellant,
versus

FLORIDA DEPARTMENT OF CORRECTIONS,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
ORDER:
Eric Lucas, a Florida prisoner serving a total sentence of life imprisonment for burglary of
a dwelling with battery and aggravated battery, moves for a certificate of appealability (“COA”)
and leave to proceed in forma pauperis (“IFP”) to appeal the district court’s denial of his pro se
28 U.S.C. § 2254 habeas corpus petition. He raised nine claims in his § 2254 petition, all of which
the district court denied on the merits.
First, Lucas is not entitled to a COA on his claim that the district court violated the
Confrontation Clause by introducing hearsay statements of his girlfriend, Lauren Glushko, who
did not testify at trial, because the Florida courts properly determined that Glushko’s unconfronted
statements were admissible because Lucas had caused her unavailability at trial by threatening her.
Giles v. California, 554 U.S. 353, 359 (2008); Fla. Stat. Ann. § 90.804(2)(f).

Case: 19-14394

Date Filed: 05/08/2020

Page: 2 of 3

Second, no COA is warranted on Lucas’s claim that the prosecutor’s remarks during
opening statements and closing arguments—which referenced the “truth,” discussed the
presumption of innocence, and told jurors to “do the right thing”—violated his due process rights
because there is not a reasonable probability that, absent those remarks, the outcome of the trial
would have been different. Spencer v. Sec ’y, Dep’t ofCorr., 609 F.3d 1170,1182 (11th Cir. 2010).
Third, no COA is warranted on Lucas’s claim that counsel was ineffective in failing to call
an expert witness to testify about whether the eye injury suffered by the assault victim, Lewisha
Freeman, was permanent because testimony that the attack broke the bones around Freeman’s eye
was sufficient to support the aggravated battery conviction based on great bodily harm. Strickland
v. Washington, 466 U.S. 668, 694 (1984).
Fourth, no COA is warranted on Lucas’s claim that counsel was ineffective in failing to
object to the identification of Glushko’s voice in jail calls introduced at trial because, even if the
calls had not been admitted, there was sufficient evidence to convict him of aggravated battery and
burglary based on testimony that he kicked down Freeman’s door and punched her two or three
times, resulting in broken bones. Id.
Fifth, no COA is warranted on Lucas’s claim that counsel was ineffective in failing to
impeach Freeman with statements she gave to police regarding the identity of her assailant because
defense counsel elicited testimony regarding Freeman’s inability to identify her assailant
immediately after the attack, and Lucas cannot demonstrate that the outcome would have been
different if this information had been elicited through impeachment via the police report. Id.
Sixth, no COA is warranted on Lucas’s claim that counsel was ineffective in failing to
object to the identification of Lucas’s voice on the jail calls because other evidence was sufficient
to support his guilty verdicts, so the outcome would not have been different. Id.

2

Case: 19-14394

Date Filed: 05/08/2020

Page: 3 of 3

Seventh, no COA is warranted on Lucas’s unexhausted claim that counsel was ineffective
in failing to investigate the relationship between Freeman and her landlord, Janet Landry, who
Lucas argued had framed him. Lucas cannot establish a substantial claim of ineffective assistance
of counsel based on this unsupported theory. Martinez v. Ryan, 566 U.S. 1, 13 (2012).
A COA is warranted, however, as to Lucas’s eighth claim, that counsel was ineffective in
failing to call Alisa Catoggio as an alibi witness, because reasonable jurists could debate whether
counsel acted unreasonably in failing to call her, Conklin v. Schofield, 366 F.3d 1191, 1204 (11th
Cir. 2004), and whether her testimony would have undermined confidence in the outcome of the
trial, Strickland, 466 U.S. at 694.
Ninth, no COA is warranted on Lucas’s claim that defense counsel was ineffective in
failing to call Landry as a witness because, despite minor inconsistencies between Landry’s
deposition testimony and Freeman’s trial testimony, Landry’s testimony matched the key facts of
Freeman’s testimony that supported Lucas’s convictions for burglary and aggravated assault. Id.
Finally, Lucas’s arguments in his COA motion that the district court failed to conduct a de
novo review and did not address all of his claims are meritless. Accordingly, he is entitled to a
COA on whether the district court abused its discretion in denying an evidentiary hearing on the
alibi-witness claim. Based on the foregoing, a COA is GRANTED on the following issue only:
Whether Lucas’s trial counsel provided ineffective assistance by failing to call
Alisa Catoggio as an alibi witness, and whether the district court abused its
discretion in denying this claim without an evidentiary hearing.
Because the district court already granted Lucas leave to proceed IFP on appeal, his
pending IFP motion is DENIED AS MOOT.
/s/ Kevin C. Newsom
UNITED STATES CIRCUIT JUDGE

3

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 1 of 16

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14394
Non-Argument Calendar

D.C. Docket No. 0:18-cv-60383-BB

ERIC LUCAS,
Petitioner-Appellant,
versus
FLORIDA DEPARTMENT OF CORRECTIONS,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents-Appellees.

Appeal from the United States District Court
for the Southern District of Florida
(January 8, 2021)
Before MARTIN, BRANCH, and LAGOA, Circuit Judges.
PER CURIAM:

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 2 of 16

Eric Lucas, a Florida prisoner proceeding pro se, appeals the district court’s
order denying his 28 U.S.C. § 2254 petition. This Court granted a certificate of
appealability (“COA”) on the following claim: “[w]hether Lucas’s trial counsel
provided ineffective assistance by failing to call Alisa Catoggio as an alibi witness,
and whether the district court abused its discretion in denying this claim without an
evidentiary hearing.” For the reasons explained below, we affirm the district court’s
denial of this claim.
I.

FACTUAL AND PROCEDURAL BACKGROUND
On November 9, 2007, Lewisha Freeman was getting ready for work in her

apartment when she heard screams in the apartment hallway. Freeman opened her
apartment door and saw a woman, later identified as Lauren Glushko, Lucas’s
girlfriend, crying and yelling. Freeman also saw Lucas grab Glushko by the throat
but then let her go. Freeman went back inside her apartment to call the police, and
Glushko entered Freeman’s apartment, closing the door behind her. While Freeman
was calling the police, Lucas was screaming at Glushko from the hallway. Janet
Landry, Freeman’s boss, came down the hallway and told Lucas to leave, which
Lucas appeared to do. Approximately five minutes later, however, Lucas returned
and began yelling at Freeman through her apartment door. Lucas proceeded to bust
through Freeman’s door, entered her apartment, punched Freeman several times in
the head, and kneed Freeman in her eye, causing her injuries. Landry heard the
2

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 3 of 16

commotion, entered the apartment, and tried to keep Lucas from continuing to hit
Freeman. Lucas eventually ran out of the apartment. Freeman later identified Lucas
as her assailant both in a photo lineup and in court.
Lucas was charged with burglary of a dwelling with a battery against
Freeman, in violation of Florida Statute § 810.02(1) and (2)(a), and aggravated
battery against Freeman, in violation of Florida Statute § 784.045. On August 28,
2008, Lucas’s first trial counsel withdrew from the case, and Lucas secured different
counsel on September 5, 2008. Immediately prior to trial, the State moved to admit
the out-of-court statements given by Glushko to Officer Thomas Stenger of the Fort
Lauderdale Police Department when he arrived at the scene. The State explained
that Lucas had made phone calls to Glushko from jail encouraging her to mislead
the State and claim a lack of memory of the incident and threatened her with
violence. The state trial court granted the State’s motion.
On August 3, 2009, the case proceeded to trial, and Freeman, Officer Stenger,
Detective Justin Moody, and Kathleen Casey, an employee of the Broward County
Sheriffs Office, all testified. Additionally, over objection, the State published three
recorded phone calls Lucas made from jail to a number associated with Glushko.
After the State rested, Lucas moved for judgment of acquittal, which the trial court
denied. Lucas’s counsel rested the case without presenting any witnesses, to which
Lucas agreed following questioning by the trial court. The jury found Lucas guilty
3

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 4 of 16

of both charges. Because Lucas was a prison releasee reoffender, the trial court
sentenced Lucas to concurrent sentences of life imprisonment for the burglary
charge and fifteen years’ imprisonment for the aggravated battery charge. Lucas
appealed to Florida’s Fourth District Court of Appeal, which affirmed his
convictions and sentence. Lucas v. State, 67 So. 3d 332 (Fla. Dist. Ct. App. 2011).
In January 2013, Lucas filed pro se a state postconviction motion raising
several ineffective assistance of counsel claims under Strickland v. Washington, 466
U.S. 668 (1984).1 None of those claims, however, were based on a failure to present
an alibi defense or call an alibi witness. Following litigation over whether one of
Lucas’s claims was sufficiently pled,2 Lucas, now with the aid of counsel, raised a
fifth claim of ineffective assistance of counsel—failing to object to the introduction
of the jail calls on the basis that the State failed to establish Lucas’s identity on the
calls. The state postconviction court denied Lucas’s motion, the Fourth District
Court of Appeal affirmed and denied rehearing, and the Florida Supreme Court
denied discretionary review.

1 These claims included: (1) failing to consult or call an ophthalmologist to rebut the State’s
case as to the permanent damage element of aggravated battery; (2) failing to object to the
introduction of the jail calls on the basis that the State failed to establish Glushko’s identity on the
calls; (3) failing to impeach Freeman, the victim, with the police report; and (4) failing to move to
dismiss the aggravated battery charge as duplicate of the burglary with battery charge.
2 See Lucas v. State, 147 So. 3d 611 (Fla. Dist. Ct. App. 2014); State v. Lucas, 183 So. 3d
1027 (Fla. 2016).
4

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 5 of 16

On February 20, 2018, Lucas filed a petition under 28 U.S.C. § 2254. Then,
on March 8, 2018, Lucas filed an amended petition raising nine grounds for relief.
Of relevance to this appeal, ground eight of the amended petition asserted that Lucas
was provided ineffective assistance of counsel when his “counsel failed to present a
viable alibi defense that was available to [him].” Specifically, Lucas claimed that
his trial counsel was ineffective for failing to call Alisa Catoggio, who testified in a
deposition in which Lucas’s attorney did not participate and who was listed on
Lucas’s attorney list of potential witnesses. Lucas asserted that Catoggio would
have credibly testified that she was “continuously” with Lucas when the offense
occurred and that there was a reasonable probability the outcome of his trial would
have been different had Catoggio testified. In her deposition, Catoggio testified that
she was friends with and had a sexual relationship with Lucas and that, on the night
of the incident, she had picked Lucas up from a friend’s house because he was not
feeling well. Catoggio also testified that she and Lucas went to bed around 1:00 or
2:00 a.m. and that they both woke up around 8:00 a.m. when Lucas received a call
about the incident. Catoggio stated that Lucas asked her to drive to his apartment,
which was about fifty minutes away, to “check out” what had happened there and
that Lucas later told her he “had gotten into a fight” with “his ex-girlfriend Lauren.”
And Catoggio stated that Lucas’s attorney had contacted her. Lucas, however,
admitted that he did not raise this issue in his state postconviction proceedings,
5

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 6 of 16

claiming he did not raise it because he was proceeding pro se when he filed his state
postconviction motion.
In response, the State argued that ground eight was both unexhausted and
procedurally barred because Lucas had not raised the claim in any state direct or
collateral proceeding, and any petition or motion Lucas could now file in state court
would be untimely or successive. The State also argued that, although Lucas initially
proceeded pro se when he filed his state postconviction motion, he was later
appointed counsel. Finally, the State argued that the claim was not substantial.
Specifically, the State contended that Catoggio’s testimony, if presented at trial,
would not have demonstrated a credible alibi defense, as her testimony would not
rule out Lucas going to his apartment complex after Catoggio fell asleep, attacking
Glushko and Freeman, and then returning to Catoggio’s home. The State also argued
that Catoggio’s credibility could be attacked because she admittedly refused an
opportunity to reveal this alibi to the police on the day of the incident or at any point
until seven months after Lucas’s arrest and because of her friendship and sexual
relationship with Lucas. As such, the State argued that a reasonable attorney could
find that pursuing an alibi defense would not be successful and, thus, Lucas’s claim
was not substantial and should be procedurally barred.
On July 23, 2019, the magistrate judge issued a report recommending that
Lucas’s petition be denied. As to ground eight, the magistrate judge noted that Lucas
6

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 7 of 16

conceded the claim was unexhausted because it was never presented in state court
and determined that a future attempt to exhaust the claim would be futile under the
state’s procedural default doctrine. However, the magistrate judge determined that
it would evaluate whether ground eight was a “substantial” claim as Lucas had
demonstrated “sufficient cause”—that he was pro se when he filed his initial
postconviction motion—under Martinez v. Ryan, 566 U.S. 1 (2012). The magistrate
judge then concluded that ground eight was not a substantial claim. After analyzing
Catoggio’s deposition testimony, the magistrate judge found that it was unlikely she
would have been a credible witness at trial because: (1) she did not speak to the
police until more than seven months after Lucas’s arrest; (2) her sexual relationship
with Lucas; and (3) “material contradictions” within her statements, such as the
reasoning as to why she, and not Lucas, went to Lucas’s apartment after the incident.
Given Catoggio’s credibility issues and the facts of the case, the magistrate judge
determined that “a reasonable attorney could have found that pursuing an alibi
defense and presenting her as a witness based on her deposition testimony would
have been unsuccessful” and that there was nothing to suggest that the trial’s
outcome would have differed if she had testified. As such, because Lucas had not
demonstrated any prejudice under the second prong of Strickland, the magistrate
judge recommended a finding that ground eight was without merit and procedurally
defaulted from federal review. The magistrate judge also found that the “pertinent
7

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 8 of 16

facts of this case [were] fully developed in the record” such that an evidentiary
hearing was not warranted. Finally, the magistrate judge recommended denying
Lucas a CO A.
Lucas filed objections to the magistrate judge’s report, asserting that the
magistrate judge erred in denying his request for an evidentiary hearing, and
requested an evidentiary hearing. As to ground eight, Lucas disputed the magistrate
judge’s determination that it was unlikely Catoggio would be a credible witness and
argued that an evidentiary hearing was required to establish why his counsel failed
to investigate and present her as a material alibi witness.
The district court issued an order adopting the magistrate judge’s report and
recommendation. The district court overruled Lucas’s objections, explaining that
the objections were either “further expansions of argument originally raised in the
Petition” or “merely disagreements with the [Report’s findings.” Lucas appealed
and filed a motion for a COA in this Court. This Court granted a COA on the issue
of “[wjhether Lucas’s trial counsel provided ineffective assistance by failing to call
Alisa Catoggio as an alibi witness, and whether the district court abused its discretion
in denying this claim without an evidentiary hearing.”
II.

STANDARD OF REVIEW
“When examining a district court’s denial of a § 2254 habeas petition, we

review questions of law and mixed questions of law and fact de novo, and findings
8

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 9 of 16

of fact for clear error.” Tanzi v. Sec ’y, Fla. Dep’t of Corr., 772 F.3d 644, 651 (11th
Cir. 2014) (quoting Grossman v. McDonough, 466 F.3d 1325, 1335 (11th Cir.
2006)). We review “[a] district court’s decision to grant or deny an evidentiary
hearing for abuse of discretion.” McNair v. Campbell, 416 F.3d 1291, 1297 (11th
Cir. 2005).
III.

ANALYSIS
On appeal, Lucas raises two issues. First, he argues that he was denied

effective assistance of counsel when: (1) his two attorneys failed to investigate,
interview, or call an alibi witness; (2) when an alibi defense was his only defense;
and (3) his counsel presented no other defense at trial. Second, Lucas contends that
he has shown cause for his failure to develop the facts in his state court proceedings
and that the actual prejudice from such failure to entitle him to a federal evidentiary
hearing. We address his arguments in turn.
A. Whether Lucas was denied ineffective assistance of counsel by failing
to call Catoggio as an alibi witness
Lucas argues that the district court erred in denying his ineffective assistance
of counsel claim as to presenting an alibi defense based on Catoggio’s testimony.
First, as Lucas conceded below, he did not raise this claim in his state postconviction
proceedings and, thus, did not exhaust his state court remedies as to this claim. See
Duncan v. Henry, 513 U.S. 364, 365-66 (1995). “A state habeas corpus petitioner
who fails to raise his federal claims properly in state court is procedurally barred
9

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 10 of 16

from pursuing the same claim in federal court absent a showing of cause for and
actual prejudice from the default,” Bailey v. Nagle, 172 F.3d 1299, 1302 (11th Cir.
1999), or a demonstration “that failure to consider the claims will result in a
fundamental miscarriage of justice,” Sullivan v. Sec ’y, Fla. Dep’t of Corr., 837 F.3d
1195, 1201 (11th Cir. 2016) (quoting Coleman v. Thompson, 501 U.S. 722, 750
(1991)). Procedural default of a claim may occur “if the petitioner simply never
raised a claim in state court, and it is obvious that the unexhausted claim would now
be procedurally barred due to a state-law procedural default.” Bailey, 172 F.3d at
1303. Florida law generally requires ineffective assistance claims to be raised on
collateral review and to be raised within two years after the judgment and sentence
becomes final. Sullivan, 837 F.3d at 1199; Fla. R. Crim. P. 3.850(b); see also Rigg
v. Warden, Blackwater River Corr. Facility, 685 F. App’x 812, 816 (11th Cir. 2017).
In Martinez v. Ryan, 566 U.S. 1 (2012), however, the Supreme Court
recognized an exception to the general procedural default rule. The Court held that
where a claim of ineffective assistance of trial counsel must be raised in an initialreview collateral proceeding under state law, “a procedural default will not bar a
federal habeas court from hearing a substantial claim of ineffective assistance at trial
if, in the initial-review collateral proceeding, there was no counsel or counsel in that
proceeding was ineffective.”

Id. at 17.

Thus, to demonstrate “cause” under

Martinez, a petitioner must establish: (1) a substantial claim of ineffective assistance
10

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 11 of 16

of trial counsel; (2) the cause for the failure to raise the claim was lack of
postconviction counsel in the initial collateral review proceeding; (3) the state
collateral proceeding was the initial opportunity to review the claim; and (4) the
state’s law requires ineffective assistance of trial counsel claims to be raised in the
initial collateral proceeding. Trevino v. Thaler, 569 U.S. 413, 423 (2013). A
substantial claim is one that has “some merit.” Martinez, 556 U.S. at 14.
To establish a claim of ineffective assistance of counsel under Strickland, a
petitioner must demonstrate that (1) his counsel’s performance was deficient, i.e.,
that the “representation fell below an objective standard of reasonableness,” and (2)
he was prejudiced by the deficient performance, i.e., there was “a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
wouldhave been different.” Harrington v. Richter, 562 U.S. 86,104 (2011) (quoting
Strickland, 466 U.S. at 688, 694). There is a strong presumption that counsel acted
effectively, and the reasonableness of an attorney’s strategic decision is judged from
an objective perspective, not from “counsel’s subjective state of mind.” Id. at 110.
Indeed, “strategic choices made after thorough investigation of law and facts
relevant to plausible options are virtually unchallengeable; and strategic choices
made after less than complete investigation are reasonable precisely to the extent
that reasonable professional judgments support the limitations on investigation.”
Strickland, 466 U.S at 690-91. Thus, “counsel has a duty to make reasonable
11

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 12 of 16

investigations or to make a reasonable decision that makes particular investigations
unnecessary.” Id. at 691. The decision to call witnesses, if any, is “the epitome of
a strategic decision, and it is one that we will seldom, if ever, second guess.” Waters
v. Thomas, 46 F.3d 1506, 1512 (11th Cir. 1995).
We agree with the district court’s determination that Lucas did not establish a
substantial claim of ineffective assistance of counsel based on his trial counsels’
decision not to raise an alibi defense through Catoggio’s testimony. While Lucas
claims that his counsel failed to investigate and prepare the alibi defense, his first
trial counsel was aware that Catoggio could serve as a potential witness, given her
inclusion on Lucas’s potential witness list and Catoggio’s own testimony that the
attorney had contacted her. Additionally, Catoggio’s deposition was filed on March
4, 2009—five months prior to trial—and was available to Lucas’s second trial
counsel, who ultimately decided not to depose Catoggio further or pursue an alibi
defense.
Moreover, as explained by the district court, the State could have attacked
Catoggio’s credibility based on her friendship and sexual relationship with Lucas as
well as internal inconsistencies with her deposition testimony. And Catoggio’s
deposition testimony did not completely foreclose the possibility that Lucas was at
the scene of the incident. Catoggio testified that she fell asleep around 1:00 or 2:00
a.m. and that Lucas woke her up around 8:00 a.m. The incident, however, occurred
12

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 13 of 16

at around 5:30 a.m., and Catoggio’s home was only fifty minutes away from Lucas’s
apartment complex.

Given these facts, the strategic decisions of Lucas’s trial

counsels not to investigate Catoggio further or call her as a witness to present an
alibi defense was well within the counsels’ reasonable professional judgment, and
thus, Lucas has failed to demonstrate that the counsels’ performances were deficient.
Finally, even if the performances of Lucas’s two trial counsels were deficient,
Lucas has not demonstrated prejudice. Freeman’s testimony and Glushko’s out-ofcourt statements introduced at trial both identified Lucas as Freeman’s assailant.
Additionally, as evidenced by the calls Lucas made from jail, Lucas threatened
Glushko to prevent her from speaking about the incident. Based on the record in
this case, there is no reasonable probability that the result of Lucas’s trial would have
been different if Lucas’s counsel had raised the alibi defense. Lucas has therefore
failed to demonstrate that his claim is substantial under Martinez. Accordingly, this
claim is procedurally defaulted.
B. Whether the district court abused its discretion in denying the claim
without an evidentiary hearing
Lucas further argues that he should be entitled to an evidentiary hearing on
his claim to develop his claim. In habeas proceedings, “[t]he burden is on the
petitioner ... to establish the need for an evidentiary hearing.” Chavez v. Sec ’y Fla.
Dep’t of Corrs., 647 F.3d 1057, 1060 (11th Cir. 2011) (alterations in original)
(quoting Birt v. Montgomery, 725 F.2d 587, 591 (11th Cir. 1984)). In deciding
13

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 14 of 16

whether to hold an evidentiary hearing on a habeas claim, “a federal court must
consider whether such a hearing could enable an applicant to prove the petition’s
factual allegations, which, if true, would entitle the applicant to federal habeas
relief.” Schriro v. Landrigan, 550 U.S. 465, 474 (2007). “[I]f the record refutes the
applicant’s factual allegations or otherwise precludes habeas relief, a district court
is not required to hold an evidentiary hearing.” Id.; accord Chavez, 647 F.3d at
1060.
We find that the district court did not abuse its discretion in denying an
evidentiary hearing. Lucas argues that additional facts could be developed at an
evidentiary hearing, including why his first counsel did not appear at Catoggio’s
deposition and why his second counsel did not depose Catoggio or call her as a
witness. As explained above, however, the reasonableness of an attorney’s strategic
decision is judged from an objective perspective, not from “counsel’s subjective
state of mind.” Harrington, 562 U.S. at 110. Here, the facts Lucas seeks to develop
would serve to evaluate his counsels’ subjective state of mind, not the objective
reasonableness of their performances. Based on the state court record, it was well
within the counsels’ reasonable professional judgment not to pursue an alibi defense
based on Catoggio’s testimony. And Lucas has not shown any facts demonstrating
prejudice from his counsels’ failure to present an alibi defense. See Bester v.
Warden, 836 F.3d 1331, 1340 (11th Cir. 2016) (“Bester has not proffered any facts
14

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 15 of 16

that would be relevant to [the prejudice] issue in this case. That is enough, by itself,
to rule out an evidentiary hearing.”). Thus, because this claim can be adequately
assessed without further factual development, the district court was not required to
hold an evidentiary hearing. See Schriro, 550 U.S. at 474; Turner v. Crosby, 339
F.3d 1247, 1275 (11th Cir. 2003).
Moreover, the district court was limited by 28 U.S.C. § 2254(e)(2), which
“restricts the discretion of federal habeas courts to consider new evidence when
deciding claims that were not adjudicated on the merits in state court.” Cullen v.
Pinholster, 563 U.S. 170, 186 (2011); accord Bester, 836 F.3d at 1340. Section
2254(e)(2) prohibits a district court from holding an evidentiary hearing if a
petitioner fails to develop the factual basis for a claim in state court proceedings,
unless the claim relies on: (1) “a new rule of constitutional law[] made retroactive”
or “a factual predicate that could not have been previously discovered through the
exercise of due diligence;” and (2) “the facts underlying the claim would be
sufficient to establish by clear and convincing evidence that but for constitutional
error, no reasonable factfinder would have found the applicant guilty of the
underlying offense.” 28 U.S.C. § 2254(e)(2)(A)-(B). A finding of due diligence
“depends upon whether the prisoner made a reasonable attempt, in light of
information available at the time, to investigate and pursue claims in state court.”

15

USCA11 Case: 19-14394

Date Filed: 01/08/2021

Page: 16 of 16

Crawford v. Head, 311 F.3d 1288, 1329 (11th Cir. 2002) (quoting Williams v.
Taylor, 529 U.S. 420, 435 (2000)).
Here, Lucas did not raise this claim in his state collateral proceedings.
Moreover, his claim is not based on a new rule of constitutional law, and, to the
extent Lucas asserts that he could not have discovered the claim’s factual predicate
through the exercise of due diligence, this is refuted by the record. The state court
trial docket reflects that Catoggio’s deposition testimony was filed months prior to
Lucas’s trial, and Lucas could have carefully reviewed that docket and requested a
copy of the deposition from the trial court. Furthermore, Lucas would certainly have
known of the facts surrounding Catoggio’s potential role as an alibi witness, as
Catoggio claimed to be with Lucas at her home before and after the incident
occurred. The district court therefore did not err in denying Lucas’s request for an
evidentiary hearing.
IV.

CONCLUSION
For the foregoing reasons, we affirm the district court’s order denying Lucas’s

petition.
AFFIRMED.

16

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

No. 19-14394
District Court Docket No.
0:18-cv-60383-BB
ERIC LUCAS,
Petitioner - Appellant,
versus

FLORIDA DEPARTMENT OF CORRECTIONS,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents - Appellees.

Appeal from the United States District Court for the
Southern District of Florida

JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: January 08, 2021
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

ISSUED AS MANDATE 03/05/2021

USCA11 Case: 19-14394

Date Filed: 02/25/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-14394-DD

ERIC LUCAS,
Petitioner - Appellant,
versus

FLORIDA DEPARTMENT OF CORRECTIONS,
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
FLORIDA ATTORNEY GENERAL,
Respondents - Appellees.

Appeal from the United States District Court
for the Southern District of Florida
Before MARTIN, BRANCH, and LAGOA, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing CONSTRUED FROM Motion for Reconsideration filed by
Eric Lucas is DENIED.

ORD-41

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 1 of 61

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO.: 18-60383-CV-BLOOM
MAGISTRATE JUDGE REID
ERIC LUCAS,
Petitioner,
v.
MARK S. INCH, i
Respondent.

REPORT OF MAGISTRATE JUDGE
I. Introduction
The Petitioner, Eric Lucas, has filed this pro se petition for writ of habeas
corpus, pursuant to 28 U.S.C. § 2254, challenging the constitutionality of his
convictions for burglary of a dwelling with a battery and aggravated battery, entered
following a jury verdict in Broward County Circuit Court, Case No. 070222290CF10A. For the reasons detailed below, the Petitioner is not entitled to
habeas corpus relief.
This cause has been referred to the undersigned for consideration and report,
pursuant to 28 U.S.C. § 636(b)(1)(B), (C); S.D. Fla. Local Rule 1(f) governing
i

Pursuant to Fed. R. Civ. P. 25(d), since Mark S. Inch has replaced Julie Jones as the Secretary of
the Florida Department of Corrections, he is substituted as the proper respondent in this case.
1

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 2 of 61

Magistrate Judges; S.D. Fla. Admin. Order 2019-02; and the Rules Governing
Habeas Corpus Petitions in the United States District Courts.
For its consideration of the petition [ECF l],2 the court has the Respondent’s
response to this court’s order to show cause [ECF 13], along with its supporting
appendix [ECF 14; 15], containing copies of relevant state court pleadings, including
hearing and trial transcripts.
II. Claims
Construing the arguments liberally as afforded pro se litigants, pursuant to
Haines v. Kerner, 404 U.S. 519, 520 (1972), the Petitioner raises the following
grounds for relief:
1.

Petitioner’s constitutional rights were violated when the trial
court allowed hearsay evidence to be admitted at trial. [ECF 1, p.
3]-

2.

Petitioner’s constitutional rights were violated when the
prosecutor made multiple improper statements during the trial.
[ECF 1, p. 4].

3.

Petitioner received ineffective assistance of counsel when his
lawyer failed to consult and/or hire an expert witness in the area
of eye injuries. [ECF 1, p. 5].

4.

Petitioner received ineffective assistance of counsel when his
lawyer failed to object to the State’s introduction of hearsay
evidence regarding Lauren Glushko’s identity. [ECF 1, p. 7].

2 The Court uses ECF 1 as the operative petition in this case but notes that the Court previously
granted Petitioner’s motion to amend his complaint [ECF 11; 12]. However, as explained by the
Court’s order, the amended complaint did not change the substantive claims and facts raised in the
initial petition. [ECF 12].
2

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 3 of 61

5.

Petitioner received ineffective assistance of counsel when his
lawyer failed to use a police report to impeach victim Lewisha
Freeman regarding her inconsistent statements. [ECF 1, p. 8].

6.

Petitioner received ineffective assistance of counsel when his
lawyer failed to object to the admission of recorded jail phone
calls. [ECF l,p. 9].

7.

Petitioner received ineffective assistance of counsel when his
lawyer failed to investigate the relationship between Lewisha
Freeman and Janet Landry. [ECF 1, p. 10].

8.

Petitioner received ineffective assistance of counsel when his
lawyer failed to present a viable alibi defense. [ECF 1, p. 12].

9.

Petitioner received ineffective assistance of counsel when his
lawyer failed to call Janet Landry to testify at trial. [ECF 1, p.
13].
III. Procedural History

A jury found Petitioner guilty of burglary of a dwelling with battery and
aggravated battery, in violation of Fla. Stat. § 810.02 and § 784.045, following a jury
verdict. [ECF 14-1, Exs. 3, 9]. He was adjudicated guilty and sentenced to term of
life imprisonment as a prison releasee reoffender. [Id., Ex. 9]. On appeal, Petitioner
raised two arguments: (1) the trial court erred by allowing the state to introduce
Lauren Glushko’s out-of-court statements, and (2) the trial court erred by denying a
motion for mistrial based on improper prosecutorial comments. [Id., Ex. 11]. His
judgment of conviction was affirmed in a decision with a written opinion. [Id., Ex.
14]; Lucas v. State, 67 So.3d 332 (Fla. 4th DCA 2011). Rehearing was denied; and
on March 29, 2012, the Florida Supreme Court declined discretionary review. [Id.,
3

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 4 of 61

Exs. 17, 23]. Therefore, Petitioner’s conviction became final on June 27, 2012,
when the 90-day period for seeking certiorari review with the Supreme Court of the
United States expired. See Sup. Ct. R. 13; Gonzalez v. Thaler, 565 U.S. 134 (2012).
On January 22, 2013, Petitioner filed his first Rule 3.850 motion for post­
conviction relief. [Id., Ex. 24]. Petitioner argued that he received ineffective
assistance of counsel when his lawyer failed to (1) consult or call an ophthalmologist
as an expert witness to rebut the state’s case; (2) object to the introduction of his jail
calls to his girlfriend, Lauren Glushko, because the State failed to identify her voice;
(3) impeach the victim, Ms. Freeman, with a police report; and (4) move to dismiss
the aggravated battery charge on double jeopardy grounds. [Id.]. The trial court
stmck the motion with leave to amend, finding Petitioner’s “expert witness” claim,
raised as ground one in the motion, to be insufficiently pled. [Id., Ex. 27]. Petitioner
appealed; and the Fourth District Court of Appeal (“Fourth DC A”) reversed, holding
that Petitioner “sufficiently explained the relevance and substance of the expected
testimony [of the expert witness] and alleged that the outcome of the proceedings
would have been different.” [Id., Ex. 33]; Lucas v. State, 147 So. 3d 611, 612 (Fla.
4th DCA 2014). The Florida Supreme Court approved the Fourth DCA’s opinion on
appeal. [ECF 14-1, Ex. 40]; State v. Lucas, 183 So. 3d 1027 (Fla. 2016).
On remand, the court granted an evidentiary hearing on Petitioner’s expert
witness claim, and denied Petitioner’s remaining claims based on the state’s
4

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 5 of 61

response. [ECF 14-1, Ex. 42]. The trial court later vacated the order on request of
Petitioner’s postconviction counsel to allow for further responses. [Id., Exs. 43-44].
Petitioner’s postconviction counsel then filed a reply to the State’s response to the
Rule 3.850 motion, raising a fifth claim (5) that trial counsel was ineffective for
failing to object to the introduction of the jail calls on the grounds that the State
failed to establish Petitioner’s identity. [Id., Ex. 45]. After additional briefing, the
trial court summarily denied all of Petitioner’s claims based on the state’s responses.
[Id., Exs. 46-48]. That denial was subsequently,^^ curiam, affirmed on appeal. [Id.,
Ex. 52]; Lucas v. State, 230 So.3d 1219 (Fla. 4th DCA 2017). On December 6,2017,
the Florida Supreme Court dismissed Petitioner’s petition for writ of certiorari for
lack of jurisdiction. [ECF 14-1, Ex. 58].
Petitioner then came to the Court filing his initial federal habeas corpus
petition on February 15,2018.3 [ECF 1, p. 1].
IV. Threshold Issues
A. Timeliness
Careful review of the procedural history of this case confirms that less than
one year of un-tolled time expired after the Petitioner’s judgment became final and

3Absent evidence to the contrary, in accordance with the prison mailbox rule, a pro se prisoner’s
filing is deemed filed on the date it is delivered to prison authorities for mailing. Washington v.
United States, 243 F.3d 1299, 1301 (11th Cir. 2001); Fed. R. App. 4(c)(1).
5

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 6 of 61

the filing of this federal habeas petition. Therefore, as the Respondent correctly
concedes [ECF 13, p. 6], the petition is timely filed under 28 U.S.C. § 2244(d).
B. Exhaustion
Next, the Respondent argues that several of Petitioner’s claims are
unexhausted and procedurally defaulted from federal habeas review. [ECF 13, pp.
7-10], In addressing the issue of exhaustion and procedural default, the court must
determine whether the claims raised here were raised in the state court proceedings,
and whether the state courts were alerted to the federal nature of the claims.
Before bringing a § 2254 habeas action in federal court, a petitioner must
exhaust all available state court remedies. See 28 U.S.C. §§ 2254(b), (c). To properly
exhaust state remedies, the petitioner must fairly present every issue raised in his
federal petition to the state’s highest court, either on direct appeal or on collateral
review. Castille v. Peoples, 489 U.S. 346, 351 (1989); Preston v. Sec ’y, Fla. Dep’t
of Corr., 785 F.3d 449, 456-59 (11th Cir. 2015).
Exhaustion is not satisfied “merely” if the petitioner presents the state court
with “all the facts necessary to support the claim” or even if a “somewhat similar
state-law claim was made.” Kelley v. Sec’y for Dept, of Corr., 377 F.3d 1317, 134445 (11th Cir. 2004) (citation omitted). A petitioner must instead “present his claims
to the state courts such that they are permitted the ‘opportunity to apply controlling
legal principles to the facts bearing upon his constitutional claim. ’” Id. For example,
6

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 7 of 61

“[A] litigant wishing to raise a federal issue can easily indicate the federal law basis
for his claim in a state court petition or brief, for example, by citing in conjunction
with the claim the federal source of law on which he relies or a case deciding such a
claim on federal grounds, or by simply labeling the claim ‘federal.’” Baldwin, 541
U.S. at 32; McNair v. Campbell, 416 F.3d 1291, 1302-1303 (11th Cir. 2005).
To circumvent the exhaustion requirement, Petitioner must establish that there
is an “absence of available state corrective process” or that “circumstances exist that
render such process ineffective to protect [his] rights.” 28 U.S.C. § 2254(b)(1)(B);
see Duckworth v. Serrano, 454 U.S. 1, 3 (1981).
First, the Respondent asserts that part of claim 1 and all of claim 2 are
unexhausted because Petitioner failed to raise the federal constitutional terms
presented here in state court. [ECF 13, p. 7]. Specifically, regarding claim 1, the
Respondent acknowledges that although Petitioner raised a claim that the admission
of Lauren Glushko’s statements violated his constitutional right to confrontation, he
failed to raise a due process violation. [Id.]. Petitioner argues, in a conclusory
fashion, that the claim is properly exhausted because he sufficiently raised the issue
in federal constitutional terms on direct appeal. [ECF 29, p. 2], Review of the record
reveals that while Petitioner did raise a “confrontation” claim regarding the trial
court’s admission of Glushko’s hearsay statements at trial, he failed to raise this issue
as a due process violation. [ECF 14-1, Ex.l 1]. Accordingly, this portion of claim 1
7

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 8 of 61

is unexhausted. See Kormondy v. Sec’y, Fla. Dep’t of Corr., 688 F.3d 1244, 1284,
n. 37 (11th Cir. 2012) (finding that when § 2254 Petitioner failed to raise due process
claim “in the context of the claim at issue” in state court, such a claim is unexhausted
and should not be considered).
Regarding claim 2, review of the record reveals that while Petitioner argued
on direct appeal that the trial court erred by denying his motion for mistrial regarding
the prosecutor’s improper statements at trial, he raised the issued only in terms of
state law, arguing that Dunlap v. State, 21 So.3d 873 (Fla. 4th DCA 2009) was
distinguishable from the factual scenario in Petitioner’s case. [ECF 14-1, Ex. 11].
Having failed to raise this issue in federal constitutional terms in state court, claim
two is also unexhausted. See Hartge v. McDonough, 210 F. App’x 940, 943 (11th
Cir. 2006) (finding that Petitioner did not fairly present claim regarding prejudicial
admission of photographs because he did not alert the state court to the fact that he
was asserting federal constitutional claims).
Second, Respondent argues, and the Petitioner concedes, that claims 7, 8 and
9 are unexhausted because they were never presented in state court. [ECF 13, p. 8;
ECF 1, pp. 10-15]. Petitioner, however, seeks to excuse the procedural default to his
claims by alleging that he was pro se when he prepared his initial Rule 3.850 Motion,
implicating Martinez v. Ryan, 566 U.S. 1 (2012). [ECF l,pp. 10-15].

8

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 9 of 61

C. Procedural Default
It must next be determined whether Petitioner’s failure to exhaust his claims
results in a procedural default in federal court. Petitioner’s unexhausted claims
would now be procedurally barred if raised in state forum because he has already
completed a direct appeal and a Rule 3.850 motion. Bailey v. Nagle, 172 F.3d 1299,
1302-03 (11th Cir. 1999). In this case, a future attempt to exhaust state remedies
would be futile under the state’s procedural default doctrine. Bailey v. Nagle, 172
F.3d at 1303.
However, a procedurally defaulted claim may still be considered if the federal
petitioner can demonstrate (1) objective cause for the failure to properly present the
claim and actual prejudice from the alleged constitutional violation; or, (2) a
fundamental miscarriage ofjustice. See Wainwright v. Sykes, 433 U.S. 72, 87 (1977);
Tharpe v. Warden, 898 F.3d 1342, 1344-47 (11th Cir. 2018). Petitioner can show
cause by alleging that some objective factor, external to the defense, impeded his
effort to raise the claim properly in the state court. See Murray v. Carrier, All U.S.
478, 488, (1986); Wright v. Hopper, 169 F.3d 695, 703 (11th Cir. 1999). To show
prejudice, a petitioner must demonstrate that the "the errors at trial actually and
substantially disadvantaged his defense so that he was denied fundamental fairness.”
See McCoy v. Newsome, 953 F.2d at 1261 {quoting Murray v. Carrier, All U.S. at
494). The allegations of cause and prejudice must be factually specific, not
9

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 10 of 61

conclusory. Harris v. Comm’r, Ala. Dep’t of Corr., 874 F.3d 682, 691 (11th Cir.
2017).
In Martinez v. Ryan, 566 U.S. 1 (2012), the Supreme Court expanded upon
what "cause” may excuse a procedural default, determining that when a state court
claim of “ineffective assistance of trial counsel must be raised in an initial-review
collateral proceeding, a procedural default will not bar a federal habeas court from
hearing a substantial claim of ineffective assistance at trial if, in the initial-review
collateral proceeding, there was no counsel or counsel in that proceeding was
ineffective.” Martinez v. Ryan, 566 U.S. at 17. Therefore, relief is available if
(1) state procedures make it virtually impossible to actually raise ineffective
assistance of trial counsel claims on direct appeal; and (2) the Petitioner’s state
collateral counsel was ineffective for failing to raise ineffective assistance of trial
counsel claims in the state proceedings. See Lambrix v. Sec’y, Fla. Dep’t of Corr.,
756 F.3d 1246, 1261 n.31 (11th Cir. 2014). To prove that the claim is “substantial,”
the petitioner must demonstrate that the claim has some merit. Martinez v. Ryan, 566
U.S. at 10.
Here, Petitioner makes no showing of cause and prejudice to excuse the
procedural default of the portion of claim 1 and claim 2 raised in the instant petition.
Regarding claims 7, 8 and 9, it appears that Petitioner means to use Martinez to
circumvent the procedural default of these claims by alleging that he was pro se
10

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 11 of 61

when he filed his initial Rule 3.850 Motion. This constitutes sufficient cause
pursuant to Martinez v. Ryan, 566 U.S. at 17. As such, the Court will evaluate in the
discussion section below whether these claims are “substantial” such that Petitioner
was prejudiced by his failure to raise them in the state proceedings. See Martinez,
566 U.S. at 10.
Moreover, regardless of the procedural default to Petitioner’s claims, he may
nonetheless receive consideration on the merits "if he can establish that a
fundamental miscarriage of justice, the continued incarceration of one who is
actually innocent, otherwise would result.” Ward v. Hall, 592 F.3d 1144,1157 (11th
Cir. 2010); see also, McQuiggen v. Perkins, 569 U.S. 383, 387 (2013). This
exception requires the petitioner to demonstrate actual innocence, not just legal
innocence. See Rozzelle v. Sec ’y, Fla. Dep’t of Corr., 672 F.3d 1000, 1011 (11th Cir.
2012). “Only if [Petitioner] can meet the requirements for proving his actual
innocence will he ‘then be entitled to have his defaulted claim’... considered on its
merits." Id. at 1285.
Finally, where the merits of the claim may be reached and readily disposed
of, judicial economy dictates reaching the merits of the claim while acknowledging
the procedural default and bar in the alternative. See Lambrix v. Singletary, 520 U.S.
518 (1997). To the extent Petitioner’s unexhausted claims are procedurally
defaulted, they are without merit, as explained below.
11

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 12 of 61

V. Statement of Facts
A. Pretrial Hearing
Prior to trial, the court held an evidentiary hearing regarding the State’s notice
of intent to offer evidence concerning Petitioner’s battery of his girlfriend, Lauren
Glushko, that had occurred immediately before the charged battery in the instant
case. [ECF 14-1, Ex. 4]. The State argued that this evidence was necessary to
establish Petitioner’s motive and intent, and to put the incident in proper context.
[Id., p. 16]. The State also filed a motion seeking to admit Glushko’s out-of-court
statements on the basis that Petitioner actively encouraged Glushko to not cooperate
with authorities under the threat of violence. [Id., Ex.5].
Officer Thomas Stenger testified that when he arrived on scene, he found
Lauren Glushko crying and upset, with visible bruises and a missing tooth. [ECF 152, pp. 1, 4-5, 9]. Glushko told Officer Stenger that at approximately 5:00 a.m., she
began arguing with Petitioner, her boyfriend, about a text message that he received
from an unknown female. [Id., pp. 6-7]. Petitioner then began slapping her around,
grabbed her by the neck, and stated that he was going to kill her. [Id., p. 7]. The
altercation between the two of them ensued for approximately fifteen minutes until
Glushko was able to run out into the street while Petitioner chased her. [Id.].
Eventually, Glushko ran to a nearby apartment building, where she began knocking
on doors for help. [Id.]. Lewisha Freeman, in apartment 509, let Glushko inside her
12

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 13 of 61

apartment and locked the door. [Id.\ Petitioner began beating on the door and broke
it down. [Id.]. Petitioner then attacked Ms. Freeman before driving away from the
scene.4 [Id., pp. 7-9].
Detective Moody testified that during the course of his investigation, he
attempted to contact Glushko to set up a meeting with her. [Id., pp. 13-14]. Glushko
told Moody that she was willing to cooperate, but that Petitioner had made threats
towards her and that she was afraid of him. [Id., p. 14]. Linda Laviano, a victim
advocate at the State Attorney’s office, testified that Glushko declined to receive any
domestic violence services and stated that she did not remember anything about the
incident. [Id., p. 23].
The trial court permitted the “bad acts” evidence regarding Petitioner’s attack
on Glushko to be admitted at trial on the basis that (1) the evidence was inextricably
intertwined with the battery on Ms. Freeman, and (2) went to prove Petitioner’s
intent and motive under Fla. Stat. § 90.404. [ECF 14-1, Ex. 6]; see also [ECF 15-1,
pp. 6-7].

The trial court also found that the probative value of this evidence

outweighed any danger of unfair prejudice to Petitioner under Fla. Stat. § 90.403.
[Id., p. 8]. Finally, the trial court held that Glushko’s absence and unavailability as
a witness for the prosecution was procured by the Petitioner, and that he waived his

4 Petitioner was convicted of committing aggravated battery against Ms. Freeman, but was not
charged with a battery against witness Glushko at trial.
13

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 14 of 61

right to confront her as a witness based on the doctrine of forfeiture by wrongdoing.
[Id., p. 14].
B. Trial
Victim Lewisha Freeman testified that on November 5, 2007, she was living
in apartment 509 at Angelina’s Apartments, in Fort Lauderdale, Florida. [ECF 15-1,
pp. 150-51]. Fler apartment was on the first floor. [Id., p. 151]. That morning,
Freeman awoke around 5:30 a.m. to prepare for work at the apartment complex. [Id.,
p. 152]. She heard a woman, later identified as Glushko, yelling “somebody help
me, please help me.” [Id. pp. 152-53]. Glushko was banging on doors, screaming
“he’s going to kill me.” [Id., p. 153], Freeman went outside and saw the woman
crying and yelling. [Id.]. She also saw Petitioner, who lived in in the same apartment
complex, and whom she recognized as working in the same building as her. [Id., pp.
154-155]. She observed Petitioner yelling at Glushko, telling her that she was not
going to call the police, pointing his finger at her and then grabbing her throat. [Id.].
When Petitioner let Glushko go, Freeman ran into her house to call the police. [Id.,
156]. Glushko followed her into her apartment and closed the door behind her. [Id.].
Glushko and Petitioner were yelling back and forth while Freeman was calling the
police. [Id.]. Freeman’s 911 call was admitted into evidence. [Id., pp. 159-160],
After Freeman called 911, she could hear Petitioner screaming at Glushko to
come out. [Id., p. 168]. He also screamed at Freeman, telling her that she was gay
14

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 15 of 61

and that he would fight her like a man. [Id.]. When Janet Landry, Freeman’s boss,
came to the door, Petitioner left. [Id., pp. 168-69]. About five minutes later,
Petitioner came back and broke through Freeman’s front door. [Id., p. 169]. Freeman
then ran to the kitchen, but before she was able to grab a knife, Petitioner began
punching her in the head. [Id., p. 170]. Petitioner continued to batter Freeman,
repeatedly punching her and kneeing her in her eye. [Id., pp. 170-71]. The battery
concluded when Landry came inside the apartment and Petitioner ran. [Id., p. 171].
Glushko was locked in Freeman’s bathroom. [Id.].
Freeman was hospitalized for three days as a result of the beating. [Id.]. She
is required to wear an eye patch because the assault caused a bone to crack in her
eye orbit such that she can no longer focus both of her eyes at the same time. [Id.,
pp. 171-172]. Because of her injury, Freeman suffers from daily pain and migraines.
[Id. p. 172]. Freeman testified that she could not afford surgery necessary to fix her
eye, and that as a result, her condition had worsened. [Id., p. 173].
Next, Officer Thomas Stenger testified that he responded to the scene on the
date of the incident. [Id., p. 195]. He observed Glushko, frightened, panicking and
hysterical. [Id., p. 196]. Glushko was bleeding, had bruises on her face and arms,
and a missing tooth. [Id.]. Stenger’s photographs of her injuries were admitted into
evidence. [Id., p. 197]. Glushko told Stenger that she had an argument with Petitioner
and that he pushed her and slapped her, grabbed her by the neck, and stated that he
15

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 16 of 61

was going to kill her. [Id., p. 200]. Glushko explained to Stenger that she was able
to escape the apartment, but Petitioner continued the assault. [Id.]. Glushko ran to
the adjacent apartment building and began knocking on doors, hoping someone
would help her. [Id., p. 201]. Freeman, in apartment 509, let Glushko inside and
locked the door. [Id.]. Petitioner broke the door down and assaulted Freeman inside
the apartment. [Id.]. At the scene, Stenger observed Freeman’s broken door and
broken dead-bolt. [Id., p. 202]. Freeman had a swollen eye; and Stenger contacted
EMS to transport her to the hospital. [Id., p. 206].
Dr. John Clarke, an oral maxillofacial surgeon, testified that Freeman was
admitted to the emergency room because of her left eye injury and was prescribed
Dilaudid for her pain. [Id., p. 217]. A CAT scan revealed that she had a fracture of
the orbital floor, the bone just beneath the eye and just above the maxillary sinus.
[Id., p. 218]. Freeman also had a fracture of the medial wall of the orbit and was
bleeding from the eye into the maxillary sinus. [Id.]. Freeman’s left eye was so
completely swollen and closed that Dr. Clarke had to forcibly push her eye up to
examine it. [Id., p. 219]. Clarke consulted an ophthalmologist, who reported that
Freeman was complaining of double vision and photophobia. [Id., pp. 219-220].

16

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 17 of 61

Clarke, however, testified that she did not need surgery on the bone around her eye.
[Id., p. 220],
Detective Moody testified that he reported to the scene and observed the door
completely broken, and blood on the floor of the apartment. [Id., p. 225]. Moody
attempted to contact Glushko to take a statement from her, but never got a response.
[Id., p. 226]. On November 9th, four days after the incident, after she was discharged
from the hospital, Freeman identified Petitioner as the assailant in a photographic
line-up. [Id., p. 227]. Moody, who had interviewed Petitioner, also identified him as
the male voice in several jail phone calls that were admitted into evidence. [Id., pp.
230-31,239-40].
Kathleen Casey, who operates the jail’s communications system [Id., p. 24647], explained the jail’s recording system. [Id., pp. 247-49]. She pulled recordings
of phone calls made by Petitioner to a phone number registered to Glushko. [Id., pp.
287-88]. Several of the recordings were published to the jury. [Id., p. 291].
In the first phone call, which appears to have taken place after she had spoken
with authorities, Glushko told Petitioner that she thought she was “supposed to be
honest”; and Petitioner cursed at her, questioning why he would need her to “say
what really happened,” and “how is that gonna benefit me?” [Id., pp. 291-94]. After
the call ended abruptly, Petitioner called back, asking “Why would you go there and
tell the truth, you f-— idiot? Think about it. How is that gonna benefit me?” [Id., p.
17

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 18 of 61

295]. Glushko stated that Petitioner’s lawyer told her she had to attend; and the
Petitioner said his lawyer “told my old girl for you to call there and there would be
no problem with you getting out of it.” [Id., pp. 296-97]. Glushko explained that the
man who served her with a subpoena told her that if she could not make it, she should
reschedule, and the assistant state attorney told her that she had to be there. [Id., p.
298]. Petitioner then told her that they are lying and that she should read the
Declaration of Independence to learn her rights. [Id., pp. 299-300]. He told her “I
wouldn’t be in this s— if you didn’t have fucking issues with your fucking brain,
running down the hallway like a f-—jackass.” [Id., p. 301]. Glushko told Petitioner
that she is scared [Id., p. 302], and he told her to “plead the Fifth Amendment.” [Id.,
p. 306]. In response, Glushko asked, “so, you’re telling me to go to this lady and
plead the Fifth?” [Id.\. Petitioner responded, “I don’t care where it happens, that is
what you say. I don’t give a f— if you are on the stand in the courtroom.” [Id., p.
307]. Glushko responded, “Honestly, I don’t even know why this is happening. Like
didn’t I sign something?” (an apparent reference to a non-prosecution affidavit she
previously signed). [Id.].
Near the end of the call, Petitioner told Glushko, “If you f-— me up, you better
hope I never come out.” [Id., p. 312]. Petitioner told Glushko to promise that she

18

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 19 of 61

was “not going to answer anything,” and to “[j]ust remember the Fifth Amendment
s—, okay?” [Id., p. 320]. Glushko responded: “I promise you.” [Id.].
VI. Governing Legal Principles
A. Standard of Review
The court’s review of a state prisoner’s federal habeas corpus petition is
governed by the Antiterrorism and Effective Death Penalty Act (“AEDPA”). See
Abdul-Kabir v. Quarterman, 530 U.S. 233, 246 (2007); Ledford v. Warden, Ga.
Diagnostic & Classification Prison, 818 F.3d 600, 642 (11th Cir. 2016), cert, den’d,
137 S.Ct. 1432 (2017). AEDPA ensures that federal habeas corpus relief works to
“guard against extreme malfunctions in the state criminal justice systems, and not as
a means of error correction.” See Greene v. Fisher, 565 U.S. 34, 38 (2011). This
standard is both mandatory and difficult to meet. White v. Woodall, 572 U.S. 415,
420 (2014).

Deferential review under § 2254(d) is generally limited to the record that was
before the state court that adjudicated the claim on the merits. See Cullen v.
Pinholster, 563 U.S. 170, 182 (2011); Gillv. Mecusker, 633 F.3d 1272, 1288 (11th
Cir. 2011). To review a federal habeas corpus claim, the district court must first
identify the last state court decision, if any, that adjudicated the merits of the claim.
See Marshall v. Sec’y, Fla. Dep’t ofCorr., 828 F.3d 1277, 1285 (11th Cir. 2016).
The state court is not required to issue an opinion explaining its rationale, because
19

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 20 of 61

even the summary rejection of a claim, without explanation, qualifies as an
adjudication on the merits that warrants deference. See Harrington v. Richter, 562
U.S. 86, 100 (2011); Ferguson v. Culliver, 527 F.3d 1144, 1146 (11th Cir. 2008).
Where the state court’s adjudication on the merits is unaccompanied by an
explanation, federal courts must “look through the unexplained decision to the last
related state-court decision that does provide a rationale” and, “then presume that
the unexplained decision adopted the same reasoning.” Wilson v. Sellers, 138 S.Ct.
1188, 1192 (2018). Thus, if the relevant state-court decision on the merits is not
accompanied by a reasoned opinion, because it was summarily affirmed or denied,
a federal court "should Took through’ the unexplained decision to the last state-court
decision that does provide a relevant rationale.” Id.
Where the claim was "adjudicated on the merits,” in the state forum, § 2254(d)
prohibits re-litigation of the claim unless the state court’s decision was (1) "contrary
to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or, (2) "based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d); Harrington v. Richter, 562 U.S. at 97-98.
A state court decision is “contrary to” established Supreme Court precedent
when it (1) applies a rule that contradicts the governing law set forth by the Supreme
Court; or (2) confronts a set of facts that are materially indistinguishable from a
20

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 21 of 61

decision of the Supreme Court and nevertheless arrives at a result different from
Supreme Court precedent. Williams v. Taylor, 529 U.S. 362, 405-06 (2000). An
“unreasonable application” of clearly established federal law is different from an
incorrect application of federal law. Williams v. Taylor, 529 U.S. at 410.
Consequently, “[a] state court’s determination that a claim lacks merit precludes
federal habeas corpus relief so long as fair-minded jurists could disagree on the
correctness of the state court’s decision.” Mitchell v. Esparza, 540 U.S. 12, 16
(2003); Tharpe v. Warden, 834 F.3d 1323, 1337 (11th Cir. 2016), cert, den’d, 137
S. Ct. 2298 (2017) (accord). In other words, if the last state court to decide a
prisoner’s federal claim provides an explanation for its merits-based decision in a
reasoned opinion, "a federal habeas court simply reviews the specific reasons given
by the state court and defers to those reasons if they are reasonable.” Wilson v.
Sellers, 138 S. Ct. at 1192. As applied here, to the extent Petitioner’s claims were
adjudicated on the merits in the state courts, they must be evaluated under § 2254(d).
B. Ineffective Assistance of Counsel Standard
Here,

Petitioner

also

raises

multiple

claims

challenging

counsel's

effectiveness during all stages of the proceeding. The Sixth Amendment to the
United States Constitution guarantees criminal defendants the right to the assistance
of counsel during criminal proceedings against them. Strickland v. Washington, 466
U.S. 668, 684-85 (1984). When assessing counsel’s performance under Strickland,
21

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 22 of 61

the court employs a strong presumption that counsel “rendered adequate assistance
and made all significant decisions in the exercise of reasonable professional
judgment.” Id. at 690. A § 2254 Petitioner must provide factual support for his
contentions regarding counsel’s performance. Smith v. White, 815 F.2d 1401, 1406
7 (11th Cir. 1987). Bare, conclusory allegations of ineffective assistance are
insufficient to satisfy the Strickland test. See Boyd v. Comm V, Ala. Dep’t of Corr.,
697 F.3d 1320, 1333-34 (11th Cir. 2012).
“[T]he Sixth Amendment does not guarantee the right to perfect counsel; it
promises only the right to effective assistance.” Burt v. Titlow, 571 U.S. 12, 20
(2013). “Where the highly deferential standards mandated by Strickland and the
AEDPA both apply, they combine to produce a doubly deferential form of review
that asks only ‘whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.’” Gissendaner v. Seaboldt, 735 F.3d 1311, 1323
(11th Cir. 2013).
To prevail on a claim of ineffective assistance of counsel, a petitioner must
demonstrate that: (l)his counsel’s performance was deficient, falling below an
objective standard of reasonableness; and, (2) he suffered prejudice resulting from
that deficiency. Strickland, 466 U.S. at 687-88. Strategic choices made after
thorough investigation of the law and facts relevant to plausible options are virtually
unchallengeable. Strickland at 690-91. To uphold a lawyer’s strategy, a court need
22

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 23 of 61

not attempt to divine the lawyer’s mental processes underlying the strategy, because
there are “countless ways to provide effective assistance in any given case.”
Strickland, 466 U.S. at 689.
To establish deficient performance, the movant must show that, in light of all
circumstances, counsel’s performance was outside the wide range of professional
competence. Strickland, supra. See also Cummings v. Sec’y for Dep’t of Corr., 588
F.3d 1331, 1356 (11th Cir. 2009). The Court’s review of counsel’s performance
should focus on “not what is possible or what is prudent or appropriate but only [on]
what is constitutionally compelled.” Chandler v. United States, 218 F.3d at 1313;
Burger v. Kemp, 483 U.S. 776 (1987). Counsel is not ineffective for failing to raise
non-meritorious issues. Chandler v. Moore, 240 F.3d 907, 917 (11th Cir. 2001).
Counsel is also not required to present every non-ffivolous argument. Dell v. United
States, 710 F.3d 1267, 1282 (11th Cir. 2013).
Regarding the prejudice component, the Supreme Court has explained “[t]he
defendant must show that there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694. A reasonable probability is “a probability sufficient to
undermine confidence in the outcome.” Strickland, 466 U.S. at 694. A court need
not address both prongs of Strickland if the defendant makes an insufficient showing

23

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 24 of 61

on one of the prongs. Strickland, 466 U.S. at 697. See also Brown v. United States,
720 F.3d 1316, 1326 (11th Cir. 2013).
VII. Discussion
Claim 1:

Petitioner’s constitutional rights were not violated when the
court allowed hearsay evidence to be admitted at trial.

In claim 1, the Petitioner asserts that the trial court erred when it permitted
Officer Stenger to testify as to Lauren Glushko’s statements implicating Petitioner
immediately following the incident. [ECF 1, pp. 3-4]. Petitioner claims that this
testimony was impermissible because (1) forfeiture by wrongdoing is not statutorily
recognized in Florida, (2) Petitioner was denied his constitutional right to
confrontation, and (3) Glushko’s statements did not satisfy any of the hearsay
exceptions. [Id.].
Petitioner raised this claim on appeal. [ECF 14-1, Ex. 11]. In its written
opinion affirming Petitioner’s judgment of conviction, the Fourth DCA found that
the trial court did not err in admitting Glushko’s statements to the police because
they fell under the “excited utterance” exception to the Florida Evidentiary Code,
having been made immediately after the stress and excitement of Petitioner’s attack
on Glushko and Freeman. See Lucas v. State, 67 So.3d 332, 335-36 (Fla. 4th DCA
2011). The statements, made “within five to ten minutes of [Officer Stenger’s]
dispatch to the scene,” were made “without time for reflective thought” to contrive
or misrepresent. Id. at 336 (internal quotations omitted). Moreover, the Fourth DCA
24

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 25 of 61

also noted in a footnote that the trial court’s admission of Glushko’s statements did
not violate the confrontation clause because Petitioner “wrongfully procured [her]
unavailability” at trial under the doctrine of forfeiture by wrongdoing. Id. at n.l.
The Sixth Amendment provides that “[i]n all criminal prosecutions, the
accused shall enjoy the right ... to be confronted with the witnesses against him.”
U.S. CONST, amend. VI. Under federal law, the admission of a hearsay statement
made by a declarant who does not testify at trial violates the Sixth Amendment if
(l)the statement is testimonial, (2) the declarant is unavailable, and (3) the
defendant lacked a prior opportunity for cross-examination of the declarant.
Crawford v. Washington, 541 U.S. 36, 61 (2004). “Only [testimonial statements]
cause the declarant to be a ‘witness’ within the meaning of the Confrontation
Clause.” Davis v. Washington, 547 U.S. 813, 821 (2006) (citing Crawford, 541 U.S.
at 51).
Under federal common law, however, an exception to the general
confrontation rule exists for “forfeiture by wrongdoing,” “when the defendant
engaged in conduct designed to prevent the witness from testifying.” Giles v.
California, 554 U.S. 353, 359 (2008). This common law exception is codified by the
Federal Rules of Evidence, which apply a hearsay exception when a defendant
“engaged or acquiesced in wrongdoing that was intended to, and did, procure the
unavailability of the declarant as a witness.” Fed. R. Evid. 804(b)(6). The forfeiture
25

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 26 of 61

doctrine permits the admission of testimony even if the testimony is unconfronted
and would otherwise violate the confrontation clause and Crawford. See Giles, 554
U.S. at373.5
As previously discussed, the jail calls played at trial evidenced Petitioner’s
specific intent to prevent Glushko from testifying against him at trial. His threats
towards Glushko were “conduct designed” to prevent her from testifying. See Giles,
554 U.S. at 359. But for Petitioner’s wrongful conduct, Glushko herself would have
come to court to testify as to the circumstances of the incident, and would have
identified Petitioner as the perpetrator. Because Petitioner made her unavailable as
witness, Officer Stenger was permitted to testify as to her statements, even though
her statements otherwise would have been hearsay. The trial court did not err by
permitting Officer Stenger to testify as to Glushko’s statements at trial.6

5 In Giles, the Supreme Court of the United States declined to hold that the confrontation clause
barred the admission of unconfronted testimony that would otherwise be admissible under the
forfeiture doctrine. In doing so, the Supreme Court cited to various prior cases, and stated that in
“the absence of even a single case declining to admit unconfronted statements of an absent witness
on wrongful-procurement grounds...we are not persuaded to displace the understanding of our
prior cases that wrongful procurement permits the admission of prior unconfronted testimony.”
544 U.S. at 373 (emphasis added).
6 To the extent that Petitioner argues that doctrine of forfeiture was not statutorily recognized in
Florida at the time of trial, such an argument is unpersuasive. Upon habeas review, the Court does
not look to whether the trial court properly applied state law. Rather, the relevant inquiry is whether
the trial court’s decision resulted in an unreasonable application of clearly established federal law.
Williams v. Taylor, 529 U.S. at 410.
26

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 27 of 61

Moreover, the trial court did not err by admitting Glushko’s statements to
Stenger under the excited utterance exception. Specifically, an excited utterance,
which is a statement “relating to a startling event or condition made while the
declarant was under the stress of excitement caused by the event or condition,” is
admissible pursuant to Fla. Stat. § 90.803(2). Generally, to be admissible under the
excited utterance hearsay exception, the out-of-court statement must be made while
the declarant is under the stress of the startling event and without time for reflective
thought. See Hutchinson v. State, 882 So.2d 943, 951 (Fla. 2004). The rationale for
this exception is that a statement made during a period of excitement is likely to be
more reliable than a statement made after a period of reflection. See Evans v. State,
838 So.2d 1090 (Fla. 2002). A statement made during a period of excitement is
therefore less likely to be contrived. State v. Lopez, 974 So.2d 340, 345 (Fla. 2008).
Under federal law, however, the mere fact that evidence meets the
requirements of an exception to the hearsay rule does not necessarily mean it is
admissible as evidence. As discussed above, the statement might be inadmissible for
other reasons, including that the use of the statement, if it is “testimonial” in nature,
would violate the defendant's constitutional right of confrontation. Crawford, 541
U.S. at 68. The manner in which a state trial court conducts proceedings regarding
the admissibility of evidence is a matter of state law and not cognizable in a writ of

27

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 28 of 61

habeas corpus unless the hearing and ultimate ruling rendered the trial fundamentally
unfair. Alderman v. Zant, 22 F.3d 1541, 1555 (11th Cir. 1994).
In this case, the admitted statements were made immediately after the inciden
without any opportunity for Glushko to contrive or misrepresent. Moreover,
Petitioner had just attacked Glushko and Freeman, who needed emergency
assistance. Such statements are nontestimonial in nature and are not covered by the
confrontation clause. See Michigan v. Bryant, 562 U.S. 344,358 (2011) (citing Davis
to explain that statements made during the course of an ongoing emergency are not
testimonial because their “purpose is not to create a record for trial”). Therefore,
even if the forfeiture doctrine did not apply to Glushko’s statements, the testimony
still would have been properly admitted.
Given the foregoing, the admissibility of Glushko’s statements at trial was not
contrary to federal law and did not render Petitioner’s trial fundamentally unfair.
Accordingly, the State court’s rejection of this claim should not be disturbed here.
Williams v. Taylor, supra. Claim 1 should be denied.
Claim 2:

Petitioner’s constitutional rights were not violated when the
prosecutor made multiple improper statements during the trial.

In claim 2, Petitioner asserts that the trial court violated his constitutional
rights by permitting the prosecutor to make improper statements during trial, which
taken together, led the jury to believe that it could convict Petitioner with less proof
than required by the beyond-a-reasonable-doubt standard. [ECF 1, p. 4],
28

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 29 of 61

Specifically, Petitioner claims that the prosecutor made multiple improper
statements that were overly prejudicial during the course of the trial. [Id.\. First,
Petitioner claims that during opening argument, the prosecutor commented that the
jury’s purpose was to find out the “truth” about what Petitioner had done, and told
the jury “I know you will do the right thing.” [Id.]. Second, Petitioner asserts that
during closing argument, the prosecutor vouched for Glushko’s credibility when she
stated that Glushko had told Officer Stenger the truth, commented that the “truth”
had now extinguished the presumption of innocence, and told the jury “I know you
will do the right thing.” [Id.]. As discussed in the exhaustion section above, this
claim was raised by Petitioner on direct appeal only in terms of state law, where the
Fourth DCA found no reversible error. Lucas v. State, 67 So.3d 332, 336 (Fla. 4th
DCA 2011).
The standard for federal habeas corpus review of a claim of prosecutorial
misconduct is whether the alleged actions rendered the entire trial fundamentally
unfair. Donnelly v. DeChristoforo, 416 U.S. 637,642-45 (1974); Hall v. Wainwright,
733 F.2d 766, 733 (11th Cir. 1984). In assessing whether the fundamental fairness
of the trial has been compromised, the totality of the circumstances are to be
considered in the context of the entire trial, Davis v. Zant, 36 F.3d 1538, 1551 (11th
Cir. 1983). “Such a determination depends on whether there is a reasonable
probability that, in the absence of the improper remarks, the outcome of the trial
29

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 30 of 61

would have been different.” Williams v. Weldon, 826 F.2d 1018, 1023 (11th Cir.
1988).
Review of the record reveals that during opening statements, the prosecutor
told the jury that their purpose was to “find out about the truth” and that she knew
the jury would “do the right thing.” [ECF 15-1, pp. 145, 148]. During closing
argument, the prosecutor made the following comments:
Five minutes after Officer Stenger was dispatched, he was on scene.
And Ms. Glushko met him and told him what happened and who did it.
And those phone calls tell you who did it as well. And tells the truth
that came out.

Apply it to the evidence. Apply it in this case. And you will see that
Ms. Freeman has nothing to gain. Her testimony is supported by all of
the other evidence. And just because the defendant is presumed
innocent at the start of the trial, we’re coming to the close of that time,
at the end of the instruction from the judge, you no longer have to
presume him innocent.

If you believe the evidence has not shown that he is not presumed
innocent does not mean he’s actually innocent and the time for that is
over.

When you review that evidence, you will see absolutely that he is guilty
of burglary of a dwelling with a battery, guilty of aggravated battery,
and not guilty of a lesser. I thank you so much or your time and for your
attention. And I know that you will do the right thing.

30

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 31 of 61

[Id., pp. 378-380] (emphasis added). The trial court overruled all of counsel’s
objections to these statements, and denied counsel’s motion for mistrial. [Id., p. 380].
It is worth noting that at the start of the trial, and again immediately before
closing argument, the trial court clearly and correctly instructed the jury that what
the lawyers said was not evidence in the case and should not be considered as such
(ECF 15-1, pp. 129, 353), and that the case must be decided only upon the evidence
presented at trial. It is generally presumed that jurors follow their instructions. See,
e.g., Richardson v. Marsh, 481 U.S. 200, 211 (1987).
There is nothing to suggest that the prosecutor’s comments violated
Petitioner’s rights to due process such that they led the jury to convict him on a
standard less than beyond a reasonable doubt. Regarding the prosecutor’s comments
that their job was to “find out about the truth” and that the phone calls showed “the
truth,” such comments did not shift the burden of proof or direct the jury that it was
to follow a different standard of proof. See United States v. Harper, 662 F.3d 958
(7th Cir. 2011) (finding that trials are searches for the truth, and that criminal jury
trials “service an important ‘truth-seeking’ function” such that prosecutor’s
statements in closing argument regarding the “truth” where not improper) (citations
omitted).
Further, the prosecutor’s comments about the jury no longer having to
“presume [petitioner] innocent” at the time of closing, when taken in context,
31

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 32 of 61

properly related to her argument that the state had satisfied its burden of proof at that
point in the trial. There is plainly nothing in the record to suggest that the prosecutor
made these statements in a deliberate attempt to distract the jury or mislead the jurors
as to issues of guilt or innocence. United States v. Hall, 47 F. 3d 1091, 1098 (11th
Cir. 1995) (“Claims of prosecutorial misconduct are fact specific inquiries which
must be conducted against the backdrop of the entire record.”) (citations omitted).
Finally, although the Fourth DCA found that prosecutor’s “I know you will
do the right thing” comments improper, Lucas v. State, 67 So.3d at 336, the
appropriate inquiry here is whether those improper comments had an injurious effect
on the outcome of the trial. As presented at trial, there was more than sufficient
evidence of guilt against the Petitioner. Particularly, the victim, Ms. Freeman,
testified that Petitioner broke into her apartment and attacked her, kneeing her in her
eye socket, causing her great bodily harm. Freeman knew Petitioner and identified
him as her attacker in a photo lineup and at trial. Based on these facts, under the
totality of the circumstances, including the strength of the evidence of the
petitioner’s guilt, it is apparent that the prosecutor’s statements were, at worst, no
more than harmless error. See Brecht v. Abrahamson, 507 U.S. 619, 623 (1993),
quoting Kotteakos v. United States, 328 U.S. 750, 776 (1946) (a petitioner is entitled
to federal habeas corpus relief only if the constitutional error from his trial had
substantial and injurious effect or influence in determining the jury’s verdict).
32

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 33 of 61

In light of the overwhelming evidence against Petitioner at trial, there is
nothing in the record to suggest that the prosecutor’s comments, even when taken
together, affected the jury’s verdict. As such, claim 2 should be denied.
Claim 3:

Petitioner did not receive ineffective assistance of counsel
when his lawyer failed to consult and/or hire an expert witness
in the area of eye injuries.

In claim 3, Petitioner asserts that he received ineffective assistance of counsel
where his lawyer failed to consult and/or hire an expert witness in the area of eye
injuries to rebut the State’s claim that Ms. Freeman suffered permanent damage as
an element of aggravated battery. [ECF 1, p. 5]. Specifically, he claims that his
lawyer should have called an expert witness to testify that Freeman’s injuries did not
constitute “permanent injury or permanent disfigurement” as argued by the State at
trial. [Id.]. Petitioner also argues that the State abandoned its argument that the
battery resulted in “great bodily harm,” instead focusing on “permanent damage”
and “disfigurement” arguments. [Id.]. Finally, Petitioner argues that the trial court
erred by failing to hold an evidentiary hearing on this claim on remand after the
original order striking his claim was reversed on appeal. [Id.].
Petitioner raised this claim in his Rule 3.850 motion for post-conviction relief.
[ECF 14-1, Ex. 24]. In response, the State argued that under Florida law, the
definition of “great bodily harm” is generally a question of fact for the jury to decide.
[Id., Ex. 47, p. 393]. Because the jury verdict reflects that the State proved that
33

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 34 of 61

Freeman suffered great bodily harm in the form of a fractured orbital bone, the State
argued that even if counsel had called an ophthalmologist to testify that her injuries
were not permanent, the outcome at trial would not have been different. [Id.]. After
the trial court denied the claim for the reasons set forth in the state’s response [Id.,
Exs. 47, 48], the Fourth DCA per curiam affirmed the trial court’s denial of the
motion. [Id., Ex. 52]. As such, the claim is exhausted and ripe for federal habeas
review.
Which witnesses to call, if any, is a strategic decision that should seldom be
second guessed. See Conklin v. Schofield, 366 F.3d 1191, 1204 (11th Cir. 2004).
“[E]vidence about the testimony of a putative witness must generally be presented
in the form of actual testimony by the witness or on affidavit. A defendant cannot
simply state that the testimony would have been favorable; self-serving speculation
will not sustain an ineffective assistance claim.” United States v. Ashimi, 932 F.2d
643, 650 (7th Cir. 1991) (footnotes omitted). In other words, to successfully assert
that trial counsel should have called a witness, a petitioner must first make a
sufficient showing setting forth the content of the witness’s proposed testimony. See
Bray v. Quarterman, 265 F. App’x 296, 298 (5th Cir. 2008).
Furthermore, a claim of ineffective assistance based on the failure to consult
and call an expert requires “evidence of what a scientific expert would have stated”
at trial in order to establish Strickland prejudice. Day v. Quarterman, 566 F.3d 527,
34

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 35 of 61

538 (5th Cir. 2009) (citation omitted); accord Delgado v. United States, 162 F.3d
981, 983 (8th Cir. 1998). A habeas petitioner’s unsupported and speculative
assertion that testimony of expert witness would have caused the jury to view the
evidence differently is insufficient to establish prejudice, as is required to warrant
habeas relief on basis of alleged ineffective assistance of counsel. See Duran v.
Walker, 223 F. App’x 865, 875 (11th Cir. 2007).
Here, Petitioner was charged with aggravated battery against Freeman
pursuant to Fla. Stat. § 784.045 by “intentionally or knowingly causing] [her] great
bodily harm, permanent disability, or permanent disfigurement by fracturing [her]
eye socket.” [ECF 14-1, Ex. 3] (emphasis added). At trial, Freeman testified she
spent three days in the hospital recovering from her injuries, and that as a result of
the assault, she needed to wear an eye patch because she was unable to focus both
of her eyes at the same time. [ECF 15-1, pp. 170-172]. Freeman also testified that
she could not afford surgery necessary to fix her eye, which worsened her condition.
[Id., p. 173].
Dr. Clarke testified that he treated Freeman for a fracture of the orbital floor
and a fracture of the medial wall of the orbit, and that she was bleeding from her eye.
[Id., pp. 217-18]. Clarke consulted an ophthalmologist who stated that Freeman was
complaining of double vision and photophobia. [Id., pp. 219-220]. Despite her
symptoms, Clarke concluded that Freeman did not need surgery on the bone “at that
35

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 36 of 61

time,” and told her to follow up with the ophthalmologist. [Id., p. 220]. Dr. Clarke
stated that after Freeman was discharged from the hospital, he did not know if
anything further was done to treat her injuries. [Id., p. 223].
In closing argument, the prosecutor specifically argued the following based
on the testimony of Clarke and Freeman:
Now, the second thing that the defendant is charged with is a crime
called aggravated battery. An aggravated battery has two
elements.. ..the second element is that when he hit her he intentionally
knowingly caused great bodily harm or permanent disability or
permanent disfigurement to Lewis ha Freeman.
You heard testimony. You saw her here. You saw pictures of her
injuries. You heard from the doctor saying that she had not one, but two
fractures. He literally broke her face by taking her head and slamming
it into his knee. And she had problems ever since. She has to wear an
eye patch because she still has double vision, blurry vision, that she
complained about when she was at the hospital almost two years ago.

[ECF 15-1, pp. 356-57] (emphasis added). The jury was also specifically instructed
by the trial court that it could find Petitioner guilty of aggravated battery on a theory
of “great bodily harm, permanent disability, or permanent disfigurement.” [ECF 151, p. 387] (emphasis added).
It is clear from the review of the record above, that the state did not abandon
its argument that Petitioner caused Freeman “great bodily harm,” as he now claims.
[ECF 1, p. 5]. Moreover, although Dr. Clarke opined that Freeman did not suffer
permanent damage and/or need surgery, it is undisputed that she suffered a fracture
36

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 37 of 61

of her eye socket, and that her left eye was completely swollen and closed. Such
injuries constitute great bodily harm, which is distinguishable from “slight, trivial,
minor or moderate harm...[that]...[is] likely to be inflicted in a simply assault and
battery.” Owens v. State, 289 So.2d 472,474 (Fla. 2d DCA 1974); see also Coronado
v. State, 654 So.2d 1267 (Fla. 2d DCA 1995).
Accordingly, Petitioner’s assertion that his lawyer could have presented an
expert witness that would have testified that Freeman’s injuries did not result in great
bodily harm is pure speculation, insufficient to satisfy the Strickland test. See Duran
v. Walker, 223 F. App’x at 875. Given the bare and conclusory nature of Petitioner’s
allegation, and the more than sufficient evidence presented at trial to explain the
extent of the victim’s injuries, he fails to demonstrate that counsel’s performance
was deficient for failing to call an expert witness to rebut Dr. Clarke’s testimony.
See Smith v. White, 815 F.2d at 1406-07.
Moreover, to the extent that Petitioner means to suggest that the State
committed a Giglio7 violation by allowing Freeman to testify that she needed surgery
[ECF 1, p. 5, n. 3], such a claim is without merit. Although Dr. Clarke testified that
he did not believe Freeman needed surgery on her orbital bone at the time of

7 Giglio v. United States, 405 U.S. 150, 153 (1972) (finding that a defendant is denied due process
when the state knowingly uses perjured testimony at trial or allows untrue testimony to go
uncorrected).
37

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 38 of 61

discharge, he told her to follow up with an ophthalmologist, an eye surgeon who
works on the eye itself. [ECF 15-1, pp. 219-221], It is entirely possible that an
ophthalmologist who later treated her determined that surgery was necessary
because of continued issues with her vision. [Id., p. 172]. Although the nature of the
necessary surgery is not clear from Freeman’s testimony, there is nothing in the
record to suggest that the state allowed her to perjure herself at trial. See Giglio, 405
U.S. at 153. Furthermore, as discussed above, whether or not Freeman needed
surgery is of no consequence, as the jury could have still found Petitioner guilty
under a theory of great bodily harm.8 Given the foregoing, the state court’s resolution
of the issues raised in claim 3 during Petitioner’s state postconviction proceeding
should not be disturbed here. 28 U.S.C. § 2254(d); Williams v. Taylor, supra.
Regarding part two of Petitioner’s claim, that the trial court violated his right
to due process by failing to hold an evidentiary hearing after the decision in his initial
Rule 3.850 was vacated and remanded, such a claim is also without merit. As
discussed in the procedural history above, when the trial court struck Petitioner’s
initial Rule 3.850 motion on the basis that he failed to sufficiently plead his “expert

8 Petitioner appears to suggest that had counsel called an expert witness to testify that the witness
would have testified that Freeman’s injuries were not “permanent,” and the jury would have only
convicted him of battery, thereby lessening his exposure at sentencing. [ECF 1, pp. 5-6], However,
as discussed above, the evidence presented at trial clearly established that Freeman suffered great
bodily harm, sufficient to sustain his aggravated battery conviction. Thus, there is no reasonable
probability that had counsel presented an expert witness, that the outcome at trial would have been
different as required by the second prong of Strickland. See e.g. Evans v. Cockrell, 285 F.3d 370,
377-78 (5th Cir. 2002). 38

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 39 of 61

witness” claim, he appealed. The Florida Supreme Court found that Petitioner had
sufficiently plead his claim under Florida law even though he did not name a specific
expert and attest that the expert would have been able to testify at trial. [ECF 14-1,
Ex. 40]. On remand, the trial court granted an evidentiary hearing on the claim after
the state conceded one was necessary. [Id., Exs. 41,42]. The trial court later vacated
the order on request of Petitioner’s post-conviction counsel to allow for further
responses. [Id., Exs. 43-44]. After additional briefing, the trial court summarily
denied all of Petitioner’s claims based on the state’s responses without an evidentiary
hearing. [Id., Ex. 48].
Petitioner’s argument that the trial court failed to comply with the mandate is
not cognizable in the instant habeas action. See Moore v. Steward, 948 F.Supp.2d
826, 858 (W.D. Tenn. 2013). It is well-settled in the Eleventh Circuit that a prisoner's
challenge to the process afforded him in a state post-conviction proceeding does not
constitute a cognizable claim for habeas corpus relief. This is so because such a claim
represents an attack on a proceeding collateral to the prisoner's confinement, and not
the confinement itself. Carroll v. Secretary, DOC, FI. Attorney Gen., 574 F.3d 1354,
1366 (11th Cir. 2009); Spradley v. Dugger, 825 F.2d 1566, 1568 (11th Cir. 1987)
(holding that habeas petitioner’s claim of error in Rule 3.850 proceeding did not state
a basis for habeas relief because “[n]either the state court’s failure to hold a hearing
... nor its failure to attach the relevant portions of the record in any way undermines
39

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 40 of 61

the validity of petitioner’s conviction [and thus went] to issues unrelated to the cause
of petitioner's detention”). Thus, whether the trial court was barred based on the
doctrine of judicial estoppel, as petitioner argues in his reply [ECF 29, p. 9], such an
argument is unpersuasive because it challenges the resolution of Petitioner’s post­
conviction proceeding.
Moreover, Petitioner’s reliance on Holder v. Gualtieri, No. 8:14-CV-2052-T33JSS, 2015 WL 4079844, at *3 (M.D. Fla. Jul. 6,2015) in his reply [ECF 29, p. 9]
is misguided because the case, a civil suit against child protective services, refers to
what Florida law “mandates” by statute regarding officials’ affirmative duty to
ensure the well-being of children in their custody. Holder, 2015 WL 4079844, at *3.
It has nothing to do with the effect of the Florida Supreme Court’s mandate in a
criminal case on the lower courts. Id. Given the foregoing, claim 3 should be denied.
Claims 4 & 6:

Petitioner did not receive ineffective assistance of
counsel when his lawyer failed to object to the State’s
introduction of evidence regarding Glushko and
Petitioner’s identities.

Claims 4 and 6 are sufficiently related to address together. In claim 4,
Petitioner argues that he received ineffective assistance of counsel where his lawyer
failed to object to Glushko’s out-of-court statements on the basis that the State failed
to establish her identity. [ECF 1, p. 7]. In claim 6, Petitioner asserts that his lawyer
also failed to object to the admission of Petitioner’s jail calls on the basis that the
prosecutor had not proven Petitioner’s identity. [Id., p. 9]. Petitioner claims that had
40

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 41 of 61

counsel objected to the admission of these statements and calls on this basis, that the
trial court would have sustained the objections, and excluded the evidence, creating
a reasonable probability that the outcome at trial would have been different. [Id., pp.
7,9-10]. Petitioner exhausted claim 4 in state court.9 [ECF 14-1, Exs. 45,48]; Lucas
v. State, 230 So.2d 1219 (Fla. 4th DCA 2017).
Florida Statute 90.901 provides: “Authentication or identification of evidence
is required as a condition precedent to its admissibility. The requirements of this
section are satisfied by evidence sufficient to support a finding that the matter in
question is what its proponent claims.” “Once a prima facie showing of authenticity
is made pursuant to this section, however, the evidence may be admitted, and the

9 Regarding the exhaustion of claim 6, the record is unclear. While the trial court’s order denying
Petitioner’s amended Rule 3.850 motion did not expressly address “Ground V” of the motion
(where Petitioner argued that counsel ineffectively failed to object to testimony regarding his voice
identification on the jail calls), it denied the motion in its entirety “for the reasons set forth in the
state’s responses.” [ECF 14-1, p. 397]. However, review ofthe state’s underlying response reveals
that the state argued that “Ground V” was untimely filed. [ECF 14-1, p. 386]. Nevertheless, the
state concedes in its response that the ground, raised as claim 6 here, was properly exhausted. [ECF
13, p. 10]. As such, it has expressly waived any exhaustion argument on this issue. See Vazquez v.
Sec’y, Fla. Dep’t ofCorr., 827 F. 3d 964, 967 (11th Cir. 2016).
Nevertheless, with respect to claim 6, this court need not resolve whether the claim was exhausted.
As will be demonstrated in more detail below, under de novo review, Petitioner’s claim fails. When
it is unclear or less efficient to resolve whether § 2254(d)’s additional restriction applies, federal
courts may also deny writs of habeas corpus under § 2254 by engaging in de novo review, a more
favorable standard, as a habeas petitioner would surely not be entitled to a writ under § 2254(d) if
their claim would fail under de novo review. See, e.g., Berghuis v. Thompkins, 560 U.S. 370, 390
(2010); Hittson v. GDCP Warden, 759 F.3d 1210, 1248 (11th Cir. 2014); Trepal v. Sec’y, Fla.
Dep’t of Com, 684 F.3d 1088, 1109-10 (11th Cir. 2012).

41

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 42 of 61

ultimate question of authenticity is left for the jury to determine.” Jackson v. State,
979 So.2d 1153, 1154 (Fla. 5th Cir. 2008).
Regarding voice identification, “Florida courts have consistently allowed law
enforcement officers to identify the voice of a defendant where the officer has gained
familiarity with the voice.” Johnson v. State, 252 So.3d 1114, 1118 (Fla. 2018)
(citations omitted). A “familiarity” means that “prior to trial, the identification
witness must have gained familiarity with the defendant that assists the witness in
identifying him.” Id. (citing Johnson v. State, 215 So.3d 644, 652 (Fla. 5th DCA
2017)). “[FJamiliarity with a defendant’s voice acquired during an ongoing
investigation may constitute the requisite prior special familiarity for voice
identification testimony.” Id. Under federal law, “testimony by a witness that he
recognized the accused by his voice is admissible, provided that the witness has
some basis for comparison of the accused’s voice with the voice which he has
identified as that of the accused.” See U.S. v. Ladd, 527 F.2d 1341, 1343 (5th Cir.
1976).
In the instant case, Kathleen Casey, the Detention Communications
Coordinator at the Broward County Jail, testified at trial that 55 phone calls were
made from the Broward County Jail to a phone number registered to Lauren
Glushko. [ECF 15-1, pp. 249,278-88]. The person associated with the account used
to make the phone call was Petitioner. [Id., pp. 289-290]. In the calls played to the
42

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 43 of 61

jury, the male speaker refers to the female speaker as “Lauren” [Id., p. 292], and the
female speaker refers to the male speaker as “Eric.” [Id., p. 295]. Detective Moody
also testified that he had the opportunity to speak with Petitioner and hear his voice.
[Id., p. 230]. Moody stated that he listened to the jail calls and the male speaker
sounded like Petitioner, whom he had interviewed. [Id., p. 231]. Officer Stenger
testified that he spoke with Lauren Glushko at the scene of the crime, who stated
that she had an altercation with Petitioner. [Id., p. 195-96].
Given the evidence above, the State established a prima facie case by evidence
sufficient to support a finding that both Glushko and Petitioner participated in the
jail calls. Therefore, any objection to the admission of the calls on authenticity
grounds would have been overruled by the trial court. Accordingly, Petitioner fails
to establish that counsel’s performance was deficient for failing to object to this
evidence.
To the extent that Petitioner challenges the admission of Officer Stenger’s
identification of Lauren Glushko as inadmissible hearsay, such a claim is also
without merit. While it is true that Florida law prohibits an officer from testifying
about a non-testifying witness’s identity as impermissible hearsay, Holborough v.
State, 103 So.3d 221 (Fla. 4th DCA 2012), Petitioner forfeited any right to challenge
the testimony regarding Glushko’s identity at trial. As previously discussed above,
Glushko’s statements to law enforcement were admissible based on the doctrine of
43

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 44 of 61

forfeiture. Had Petitioner not wrongfully procured Glushko’s unavailability at trial,
she would have testified in court to establish her identity. Because she was unable
to testify due to Petitioner’s own wrongdoing, Stenger, Moore, and Freeman were
permitted to testify to her identity at trial.
Moreover, even if the testimony as to the identity of Lauren Glushko was
inadmissible such that any objection to the testimony would have been sustained,
there still would have been more than sufficient evidence against the Petitioner at
trial. Particularly, Freeman identified Petitioner and admitted that she saw him
beating up a female. [ECF 15-1, p. 155]. After she let the female into her apartment,
Petitioner proceeded to break down the door and attack Freeman, kneeing her in her
eye and fracturing here eye socket. [Id., pp. 170-71]. This testimony establishes that
Petitioner committed aggravated battery and burglary with a battery as charged in
the information. [ECF 14-1, Ex. 3]. Glushko was not the named victim in the case,
her name was not a material part of the case, and, therefore, the state was not required
to prove her identity as an element of the crimes charged. As such, even if the court
had sustained an objection to the testimony regarding Glushko’s identity at trial,
there is no reasonable probability that the trial would have resulted in a different
outcome. Accordingly, Petitioner cannot demonstrate any prejudice under the
second prong of Strickland.

44

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 45 of 61

Given the foregoing, the state court’s admission of the evidence regarding
Glushko, raised as claim 4 here, did not render the trial fundamentally unfair, and
the state court’s resolution of this claim should not be disturbed here. Williams v.
Taylor, supra. Moreover, for the reasons set forth above, claim 6 is without merit
even when looking at the issue under the de novo review standard. As such, claims
4 and 6 should be denied.
Claim 5:

Petitioner did not receive ineffective assistance of counsel
when his lawyer failed to use a police report to impeach victim
Lewisha Freeman regarding her inconsistent statements.

In claim 5, Petitioner alleges that he received ineffective assistance of counsel
where his lawyer failed to use a police report to impeach Ms. Freeman regarding her
inconsistent statements about Petitioner’s identity. [ECF 1, p. 8]. Specifically, he
claims that the police report showed that Ms. Freeman claimed that she did not know
the name or identity of the assailant. [Id.]. As such, counsel should have impeached
her with this inconsistency on cross-examination. [Id.]. This claim was exhausted
in state court and is ripe for federal review.
The decision to cross-examine a witness and the manner in which it is
conducted are tactical decisions “well within the discretion of a defense attorney.”
Fugate v. Head, 261 F.3d 1206, 1219 (11th Cir. 2001) (quoting Messer v. Kemp, 760
F.2d 1080,1090 (11th Cir. 1985)). In order to establish prejudice, a habeas petitioner

45

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 46 of 61

must show at least one “specific instance where cross-examination arguably could
have affected the outcome ... of the trial.” Id. ("quoting Messer, 760 F.2d at 1090).
Here, review of the record reveals that Freeman’s testimony at trial was not
inconsistent with Petitioner’s claim that she told police that she did not know the
name or identity of her assailant. It is true that Freeman stated on cross that she knew
Petitioner’s name was “Eric,” but did not know his last name at the time of the
incident [Id., pp. 184]. However, on cross-examination, she also admitted that the
police came to her hospital room and that she was unable to identify anyone on two
separate occasions [ECF 15-1, p. 181]. Later, after she was released from the
hospital, however, Freeman identified Petitioner as the perpetrator. [Id., p. 182],
Counsel further cross-examined Freeman on a contradiction in her deposition
testimony where she stated that Petitioner was bald. [Id., pp. 184-84]. When crossexamining Stenger, counsel confirmed that Ms. Freeman told him that she did not
know Glushko or Lucas. [Id. p. 208]. Thus, while trial counsel did not directly
question Freeman regarding the police report, he effectively brought the
contradictions in her testimony before the jury through his cross-examination.
However, even if counsel had cross-examined Freeman with the police report
at trial, there is no reasonable probability that the outcome at trial would have been
different. Freeman acknowledged that she could not identify anyone immediately
after the incident because of her injuries and the fact that she was on medication.
46

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 47 of 61

[ECF 15-1, p. 191]. Moreover, counsel thoroughly harped on Freeman’s initial
failure to identify Petitioner in his closing argument. [ECF 15-1, p. 368]. Even with
the arguments set forth by counsel, the jury was unpersuaded and found Petitioner
guilty in light of the overwhelming evidence against him. Accordingly, Petitioner
fails to demonstrate any prejudice resulting from counsel’s alleged deficient
performance under Strickland. The state court’s resolution of this claim should,
therefore, be left undisturbed. Williams v. Taylor, supra. Claim 5 should be denied.
Claims 7 & 9:

Petitioner did not receive ineffective assistance of
counsel when (1) his lawyer failed to investigate
Freeman’s relationship with Janet Landry and (2) failed
to call Landry as a witness at trial.

Claims 7 and 9 are sufficiently related to address together. In claim 7,
Petitioner asserts that he received ineffective assistance of counsel, where his lawyer
failed to investigate the relationship between Freeman and Landry, Freeman’s boss.
[ECF 1, p. 10]. Specifically, Petitioner claims that there were significant
discrepancies between Landry’s statements at her deposition and Freeman’s
testimony at trial.10 [Id., p. 11]. In claim 9, Petitioner alleges that his lawyer was

10 According to Petitioner, Janet Landry stated in deposition that there was a rift between her and
Freeman over money, and that Glushko had no visible injuries on her at the time of the alleged
incident. [ECF 1, p. 11]. Petitioner claims that the “reality” of the incident is that Freeman and
Landry stole his television and the argued over the “spoils” from the theft. [Id.]. Petitioner further
asserts the argument escalated; and Landry, actually, is the one that inflicted the injuries upon
Freeman. [Id.]. The two decided to pin the altercation on Petitioner. [Id.]. Furthermore, Lauren
Glushko refused to cooperate with the defense (or the state) because Petitioner’s former defense
counsel “alienated [her] when he attempted to establish a sexual relationship with her.” [Id.].
41

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 48 of 61

ineffective for failing to call Landry as a witness. [ECF 1, pp. 13-14]. As discussed
above, these claims are unexhausted as they were not raised in state court. The
Respondent argues that these claims should be dismissed as procedurally barred
because Petitioner has failed to establish a substantial ineffective assistance of
counsel claim as required by Martinez. [ECF 13, pp. 38, 44].
Under federal law, defense counsel need only conduct a pretrial investigation
that is reasonable under the circumstances. Walker v. Sec ’y, Florida Dep’t. of Corr.,
495 F. App’x 13, 16 (11th Cir. 2012) (internal citations omitted). The manner of
investigating or presenting a particular line of defense “is a matter of strategy and is
not ineffective unless the petitioner can prove that the chosen course, in itself, was
unreasonable.” Id. (internal citations omitted).
Here, Petitioner argues that there are four key inconsistencies between Landry
and Freeman’s testimony: (1) Landry stated in deposition that Freeman and
Petitioner knew each other but did not like each other; (2) Landry stated in deposition
that Freeman never opened the door and spoke to her prior to the burglary; (3)
Landry stated that Glushko was standing in the same area as Freeman when

It should be noted that Petitioner’s argument that Glushko refused to cooperate with the parties
because of his former defense counsel’s alleged inappropriate actions is wholly contradicted by
the record. Multiple jail calls between Petitioner and Glushko at trial showed that he specifically
intended to threaten and dissuade her from testifying at trial, resulting in her unavailability at trial.
Thus, Petitioner’s allegations as to this point appear to be entirely disingenuous.

48

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 49 of 61

Petitioner struck Freeman; and (4) prior to the burglary, Freeman was inside of her
bedroom calling 911 when Glushko busted open her apartment door, but Landry
clearly stated that Freeman’s door was closed, and that she witnessed Petitioner kick
Freeman’s door open with his right leg. [ECF 1, p. 14].
As previously discussed, Freeman testified that Petitioner worked in the same
building as her. [ECF 15-1, p. 161]. After she saw Petitioner grabbing Glushko by
her throat, she walked towards her bedroom and thought she had locked the bottom
lock of her door when Glushko came busting through, closing the door behind her.11
[Id., p. 156]. Freeman also testified that when Landry came to the door, she did not
open it, but told Landry what was happening through the door [Id., pp. 168-169].
Petitioner stopped banging on her door and left, only to return quickly to break down
the door. [Id.]. The battery concluded when Landry ran inside the apartment and
Petitioner fled. [Id., p. 171]. Freeman did not see the door open, and could not recall
how many times Petitioner hit her, but stated the she had her hands up in front of her
face while she was in the kitchen. [Id., p. 170].
Landry’s deposition testimony regarding the circumstances of the battery on
Freeman, while not identical to Freeman’s account of the incident, was largely

11 Petitioner mischaracterizes Freeman’s trial testimony on this point. Freeman stated that she was
on the way to her bedroom when Glushko came into her apartment, not that she was in her
bedroom. [ECF 15-1, p. 156]. Freeman testified that she “thought” she locked the bottom lock.
[Id.]. This testimony is not inconsistent with Petitioner later breaking down the door.
49

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 50 of 61

consistent with Freeman’s testimony at trial. Specifically, she testified that she saw
Petitioner beating on the door, talked to Freeman through the door,12 and left with
Petitioner. [ECF 15-4, p. 16]. Then, Petitioner returned to the apartment, kicked in
the door, and attacked Freeman in the kitchen. [Id., pp. 17-18], Glushko was hiding
in the bathroom or was in the middle of the dining room and living room at the time
of the incident. [ECF 15-5, p. 8; ECF 15-4, pp. 29-30].13 Landry also stated that
Freeman and Petitioner knew each other from work, but didn’t like each other. [Id.].
Therefore, the only inconsistencies between Landry’s testimony and
Freeman’s testimony appear to be (1) Glushko had no visible injuries [ECF 15-5, p.
8], (2) Glushko was or was not in the bathroom at the time of the incident, and (3)
Petitioner and Freeman did not like each other. However, Glushko was not the victim
in the case. As previously discussed, the State had to prove Petitioner’s guilt only as
to the burglary and aggravated battery of Freeman. Calling Landry as a witness, then,
would have bolstered and corroborated Freeman’s account of the incident. Although

12 Petitioner mischaracterizes Landry’s deposition testimony on this point. [ECF 1, p. 14, n. 12].
Specifically, Landry testified that when she went to the door to figure out what was happening,
Freeman stated that she wasn’t opening the door because of Petitioner and that she had called the
police. [ECF 15-4, pp. 16-17]. Freeman testified at trial that she kept the door closed, but told
Landry what was happening through the door. [ECF 15-1, pp. 168-169]. These accounts are not
inconsistent.
13 Petitioner states that Landry said that Glushko was standing in the same area as Freeman when
Petitioner struck her, but in her interview with police, she stated that Glushko was hiding in the
bathroom. [ECF 15-5, p. 8]. Her testimony in her deposition was that Glushko was in the middle
of the dining room and living room. [ECF 15-4, pp. 29-30].
50

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 51 of 61

the fact that Freeman “didn’t like” Petitioner may have related to Freeman’s motive
to lie, given the obvious disadvantages to calling Landry as a witness, it is likely that
counsel made a reasonable strategic decision not to call her.14 See Walker v. Sec ’y,
Florida Dep’t. of Corr., 495 F. App’x at 16.
Moreover, given Landry’s pre-trial statements, there is plainly nothing in the
record to suggest that Freeman and Landry conspired to steal Petitioner’s television
and then frame him for aggravated battery, as he now claims.15 Freeman testified
that Petitioner was evicted from his apartment after the incident. [ECF 15-1, p. 192].
She also stated that she saw Petitioner’s television in Landry’s apartment after the
incident, [Id., p. 190]. But, Landry denied being involved in stealing the television,
and did not implicate Freeman during her deposition. [ECF 15-4, p. 31]. Thus, the

14 Finally, to the extent that Petitioner appears to suggest [ECF 1, p. 15, n. 14] that counsel
ineffectively acquiesced to the State’s pretrial motion in limine to preclude him from making any
mention of Janet Landry at trial, such a claim is without merit. While it does not appear that the
State’s motion in limine was made part of record provided by the state in this matter, it would not
have been error for the State to move the court to preclude the defense from commenting on its
failure to call Landry as a witness at trial. Under Florida law, when a witness is equally available
to both parties, “no inference should be drawn or comments made on the failure of either party to
call the witness.” Haliburton v. State, 561 So.2d 248, 250 (Fla. 1990) (internal citations omitted).
15 There is no support, other than Petitioner’s fantastical allegations here regarding the relationship
between Freeman and Landry, to support his claim that they conspired to frame him for the battery
to avoid going to prison. Such a theory of defense is wholly contradicted by the jail calls presented
at trial, where Petitioner threatened Glushko for telling the “truth” to authorities. [ECF 15-1, p.
295],
Furthermore, to the extent that he articulates all the manners in which counsel should have
investigated this potential theory of defense in his reply, such allegations should not be considered.
A traverse is not the proper vehicle to raise for the first-time facts to support a ground for relief.
See Cacoperdo v. Demosthenes, 37 F.3d 504, 507 (9th Cir.1994)
51

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 52 of 61

only evidence to support the claim that Landry stole Petitioner’s television was
Freeman’s testimony that she saw the television in Landry’s apartment more than a
month after the incident, and Freeman’s injury, had occurred.
Nevertheless, counsel harped on Freeman’s possible motive during closing
argument, where he argued that this “stolen T.V.” created a motive to lie and
fabricate the allegations against Petitioner. [ECF 15-1, pp. 369-370]. The jury,
however, was unpersuaded, and found Petitioner guilty in light of the overwhelming
evidence presented at trial. As such, even if counsel had “investigated” Landry and
called her as a witness, there is no reasonable probability that the outcome at trial
would have been different. Because Petitioner’s claims 7 and 9 are without merit,
his claims cannot overcome the procedural bar and are precluded from federal
review. See Martinez, 566 U.S. at 9.
Claim 8:

Petitioner did not receive ineffective assistance of counsel
when his lawyer failed to present an alibi defense.

In claim 8, Petitioner alleges that he received ineffective assistance of counsel
where his lawyer failed to present a viable alibi defense. [ECF 1, p. 12]. Specifically,
Petitioner claims that he informed counsel that he was somewhere else at the time
of the alleged incident, and that Alisa Catoggio would testify to that fact. [Id.].
Petitioner alleges that counsel told him that he would be waiving his right to
challenge the evidence of jail calls and Glushko’s hearsay statements to Officer
Stenger should he proceed with an alibi defense. [Id.]. Petitioner alleges that had
52

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 53 of 61

counsel not misadvised him, he would have moved forward with the alibi defense.
[Id.].
The Respondent argues that this claim should be dismissed as procedurally
barred because Petitioner has failed to establish a substantial ineffective assistance
of counsel claim as required by Martinez. [ECF 13, p. 41]. The Respondent is
correct.
Based on Catoggio’s deposition testimony, it is unlikely that she would have
been a credible witness at trial. Catoggio, who stated in her deposition that she and
Petitioner had a sexual relationship, claimed that she picked up the Petitioner from
a friend’s house the evening before the incident and took him to her home. [ECF 153, pp.4-5]. She first claimed that he received a telephone call in the morning saying
that an incident had occurred and instructed Catoggio to go to his apartment to
retrieve clothes and a toothbrush for him because he was not feeling well and did not
have his car. [Id., p. 7]. Later in the deposition, she claimed that after picking up the
Petitioner the night before, they watched movies and then went to sleep around 1 or
2 a.m. [Id.]. Then, Petitioner woke to a phone call regarding the incident and asked
Catoggio to go get his clothes from his apartment because he “didn’t know what he
was going to run into ” and wanted Catoggio to “check it out. ” [Id., pp. 9, 11]. After
she left her apartment around 8 a.m. and went to Petitioner’s apartment, she ran into
Landry who told her what Petitioner had done, to which Catoggio claimed that she
53

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 54 of 61

responded, “well that’s impossible because he was with me.” [Id.]. She did not stay
to speak with the police because she “didn’t feel it necessary to give a statement.”
[Id., pp. 15-16]. When she returned to her house, she gave Petitioner a ride to the
same place she had picked him up from the night before. [Id., p. 17].
According to Catoggio, Petitioner later told her that he had gotten into a fight
with his ex-girlfriend, Glushko, and Glushko claimed that he beat her up or beat up
somebody else because of the situation. [Id., p. 18]. Petitioner didn’t know what to
do and was scared. [Id.]. Catoggio testified that she never went to the police to speak
with them, but did speak to Petitioner’s previous trial counsel, Mr. Cotrone, in July
2008, more than seven months after the incident. [Id., p. 22]. Catoggio also stated
that she heard that Glushko had a fake tooth. [Id., p. 27]. Petitioner shut his phone
off after the incident. [Id., p. 32].
As discussed above, the night of the incident, Catoggio was sleeping between
1 a.m. and 8 a.m. [ECF 15-3, p. 9, 12]. As the Respondent suggests, Petitioner still
had more than enough time to leave Catoggio’s house, commit the crime at 5:30
a.m., and return while Catoggio slept. [ECF 13, p. 40]. Catoggio’s failure to speak
to the police about the incident, and her reluctance to speak about the incident until
more than seven months after Petitioner’s arrest could have also been used to attack
her credibility had she testified at trial. Catoggio also would have had a clear and

54

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 55 of 61

obvious motive to lie in order to protect Petitioner, with whom she was involved in
a sexual relationship.
There were also material contradictions within Catoggio’s own statements
during the deposition. As emphasized above, in one part of the deposition, Catoggio
stated that Petitioner wanted her to go to his apartment to get him a change of clothes
because he didn’t have his car and was “sick,” [ECF 15-3, p. 7], while in another
part of the deposition, she stated that Petitioner said some “bulls— went down at
[his] place,” and asked her if she would mind going over to “check it out” and that
he wouldn’t go back to his apartment “because he didn’t know what he was going
to encounter.” [Id., pp. 10-11].
Under federal law, whether to call a particular witness or cross-examine
certain witnesses are generally questions of trial strategy. See United States v. Costa,
691 F.2d 1358, 1364 (11th Cir. 1982). Nevertheless, where counsel fails to
investigate and interview promising witnesses, and therefore “ha[s] no reason to
believe they would not be valuable in securing [defendant’s] release,” counsel’s
inaction constitutes negligence, not trial strategy. Workman v. Tate, 957 F.2d 1339,
1345 (6th Cir. 1992) (quoting United States ex rel. Cosey v. Wolff, 727 F.2d 656,
658, n.3 (7th Cir. 1984)). Strategic choices made after thorough investigation of the
law and facts relevant to plausible options are virtually unchallengeable. Strickland,
466 U.S. at 690-91. Moreover, “[w]hich witnesses, if any, to call, and when to call
55

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 56 of 61

them, is the epitome of a strategic decision, and it is one that [courts] will seldom, if
ever, second guess.” Waters v. Thomas, 46 F.3d 1506, 1512 (11th Cir. 1995).
Moreover, Catoggio stated in deposition that she went to Petitioner’s
apartment around 8 a.m., and that Landry told her that the police were on their way.
However, there was more than sufficient evidence presented at trial to show that the
police arrived on scene quickly after the incident occurred around 5:30 a.m. Given
the credibility issues with Catoggio’s testimony, a reasonable attorney could have
found that pursuing an alibi defense and presenting her as a witness based on her
deposition testimony would have been unsuccessful. See United States v. Costa, 691
F.2d at 1364.
Finally, even if counsel had presented Catoggio as an alibi witness, there is
nothing to suggest that the outcome at trial would have been different given the
credibility issues with her deposition testimony. This is especially true where
Plaintiffs alibi defense was directly contradicted by the evidence presented at trial.
Specifically, the incriminating jail calls between Petitioner and Glushko revealed
that he was concerned about Glushko cooperating with the state and telling the
“truth” about the incident. [ECF 15-1, p. 295]. Moreover, both Freeman and Glushko
(through Officer Stenger’s testimony) identified Petitioner as the perpetrator of the
aggravated battery. Accordingly, Petitioner fails to demonstrate any prejudice under
the second prong of Strickland. Given the foregoing, Petitioner claim 8 is without
56

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 57 of 61

merit and is procedurally defaulted from federal review. See Martinez, 566 U.S. at
9 16
VIII. Cautionary Instruction Re: Clisby Rule
The Court is mindful of the Clisby rule that requires district courts to address
and resolve all claims raised in habeas corpus proceedings, regardless of whether
relief is granted or denied. Clisby v. Jones, 960 F.2d at 936-36; Rhode v. United
States, 583 F.3d 1289, 1291 (11th Cir. 2009) (holding that Clisby applies to § 2255
proceedings). However, nothing in Clisby requires, much less suggests,
consideration of claims or arguments raised for the first time in objections. If the
Petitioner attempts to raise arguments or further factual support for his claims in
objections, the court should exercise its broad discretion and refuse to consider the
arguments not raised before the magistrate judge in the first instance. See Williams
v. McNeil, 557 F.3d 1287 (11th Cir. 2009) {citingStephens v. Tolbert, 471 F.3d 1173,
1175 (11th Cir. 2006) (finding no abuse of discretion by the district court in declining
to consider timeliness argument that was not presented to the magistrate judge)).
This is so because “[PJarties must take before the magistrate, ‘not only their best
shot but all of the shots.’” See Borden v. Sec'y of Health & Human Services, 836

16 To the extent that Petitioner alleges throughout his reply, see e.g. [ECF 29, p. 21], that counsel
was ineffective for failing to argue/present witnesses to testify that Glushko had a fake, removable
tooth, such an argument is unpersuasive. As discussed throughout this report, Glushko was not a
named victim in the case, and the state did not have to prove any elements of the charges in the
information as to her. Moreover, even if the tooth was removable, it still could have been knocked
out during Petitioner’s battery on Glushko.
57

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 58 of 61

F.2d 4, 6 (1st Cir. 1987) {quoting Singh v. Superintending School Committee of City
ofPortland, 593 F. Supp. 1315, 1318 (D. Me. Sept. 27, 1984).
Finally, the Court has considered all the Petitioner’s claims for relief. See
Dupree v. Warden, 715 F.3d 1295 (11th Cir. 2013). For all his claims, Petitioner
has failed to demonstrate how the state courts’ denial of his claims, to the extent they
were considered on the merits in the state forum, were contrary to, or the product of
an unreasonable application of, clearly established federal law. To the extent they
were not considered in the state forum, as discussed in this report, none of the claims
individually, nor the claims cumulatively warrant relief. Whether a precise
argument, subsumed within any of the foregoing grounds for relief, was not
specifically addressed here or in the state forum, all arguments and claims were
considered and found to be devoid of merit, even if not discussed in detail here.
IX. Evidentiary Hearing
In a habeas corpus proceeding, the burden is on the Petitioner to establish the
need for a federal evidentiary hearing. See Chavez v. Sec ’y, Fla. Dep ’t of Corr., 647
F.3d 1057, 1060 (11th Cir. 2011). To determine whether an evidentiary hearing is
needed, the question is whether the alleged facts, when taken as true, are not refuted
by the record and may entitle a petitioner to relief. Schriro v. Landrigan, 550 U.S.
465, 474 (2007); Jones v. Sec’y, Fla. Dep’t of Corr., 834 F.3d 1299, 1318-19 (11th
Cir. 2016), cert, den’d, 137 S.Ct. 2245 (2017). The pertinent facts of this case are
58

Gase 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 59 of 61

fully developed in the record before the Court. Because this Court can “adequately
assess [petitioner's] claim[s] without further factual development,” Turner v.
Crosby, 339 F.3d 1247, 1275 (11th Cir. 2003), an evidentiary hearing is not
warranted here.
X. Certificate of Appealability
A prisoner seeking to appeal a district court’s final order denying his petition
for writ of habeas corpus has no absolute entitlement to appeal but must obtain a
certificate of appealability ("COA”). See 28 U.S.C. § 2253(c)(1); Harbison v. Bell,
556 U.S. 180, 183 (2009). This Court should issue a certificate of appealability only
if the petitioner makes "a substantial showing of the denial of a constitutional right.”
See 28 U.S.C. § 2253(c)(2). Where a district court has rejected a petitioner’s
constitutional claims on the merits, the Petitioner must demonstrate that reasonable
jurists would find the district court’s assessment of the constitutional claims
debatable or wrong. See Slack v. McDaniel, 529 U.S. 473, 484 (2000). However,
when the district court has rejected a claim on procedural grounds, the Petitioner
must show that "jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would
find it debatable whether the district court was correct in its procedural ruling.” Id.
Upon consideration of the record, this court should deny a certificate of

59

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 60 of 61

appealability. Notwithstanding, if Petitioner does not agree, he may bring this
argument to the attention of the District Judge in objections.
XI. Conclusion
Based upon the foregoing, it is recommended that:
1.

the federal habeas petition be DENIED on the merits;

2.

final judgment be entered in favor of Respondent;

2.

a certificate of appealability be DENIED; and,

3.

the case CLOSED.

Objections to this report may be filed with the District Court within fourteen
days of receipt of a copy of the report. Failure to file timely objections shall bar
Petitioner from a de novo determination by the District Court Judge of an issue
covered in this report and shall bar the parties from attacking on appeal factual
findings accepted or adopted by the District Court Judge, except upon grounds of
plain error or manifest injustice. See 28 U.S.C. § 636(b)(1); Thomas v. Am, 474 U.S.
140, 149 (1985); RTC v. Hallmark Builders, Inc., 996 F.2d 1144, 1149 (11th Cir.
1993).
Signed this 23rd day of July, 2019.

_______ pitj i 11x9
UNITED ^TATESMAGI

60

TE JUDGE

Case 0:18-cv-60383-BB Document 36 Entered on FLSD Docket 07/23/2019 Page 61 of 61

cc:

Eric Lucas
W07313
Okeechobee Correctional Institution
Inmate Mail/Parcels
3420 NE 168th Street
Okeechobee, FL 34972
PRO SE
Luke Robert Napodano
Office of the Attorney General
1515 North Flagler Drive
Suite 900
West Palm Beach, FL 33401
561-837-5000x179
Email: luke.napodano@myfloridalegal.com

61

Case: 0:18-cv-60383-BB

Document #: 42 Entered on FLSD Docket: 10/08/2019

Page 1 of 7

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 18-cv-60383-BLOOM/Reid
ERIC LUCAS,
Petitioner,
v.

MARK S. INCH,
Respondent.

ORDER ADOPTING MAGISTRATE JUDGE’S
REPORT AND RECOMMENDATION
THIS CAUSE is before the Court upon the Report and Recommendations of the
Honorable Lisette M. Reid. ECF No. [36] (“Report”). On July 23, 2019, Judge Reid issued the
Report recommending that the Petition for Habeas Corpus Relief, ECF No. [10] (“Petition”),1 be
denied on the merits, final judgment be entered in favor of Respondent, and that a certificate of
appealability be denied and the case be closed. ECF No. [36] at 60. The Report advised that any
objections to the Report’s findings were due within fourteen days of receipt of the Report. Id.
Plaintiff has timely filed objections to the Report. ECF No. [39] (“Objections”). This Court
has conducted a de novo review of the portions of the Report to which Petitioner has objected, in
accordance with 28 U.S.C. § 636(b)(1)(C), and the remainder of the Report for clear error, and
finds that the Objections are without merit and are therefore overruled. Taylor v. Cardiovascular
Specialists, P.C., 4 F. Supp. 3d 1374, 1377 (N.D. Ga. 2014) (citing United States v. Slay, 714 F.2d

The Report notes that, although Petitioner was granted leave to file an amended complaint, see
ECF Nos. [10], [11], & [12], this “amended complaint did not change the substantive claims and facts raised
in the initial petition.” ECF No. [36] at 2 n.l. As such, the Report uses the initial petition, ECF No. [1], as
the operative petition. Id. For consistency, this Court does as well.

Case: 0:18-cv-60383-BB

Document #: 42 Entered on FLSD Docket: 10/08/2019

Page 2 of 7

Case No. 18-cv-60383-BLOOM/Reid
1093, 1095 (11th Cir. 1983)). The Court first notes that most of Petitioner’s Objections are
improper, as they are either further expansions of arguments originally raised in the Petition and
considered by the Magistrate Judge or are merely disagreements with the Report’s findings. These
objections include:
1.

Petitioner’s Objection to the Report’s finding that an evidentiary hearing was
unwarranted. ECF No. [39] at 2-3.

• 2.

Petitioner’s objection to the Report’s finding that Claim One is without merit. Id.
at 4-23.

3.

Petitioner’s objection to the Report’s finding that Claim Two is without merit. Id.
at 24-25.

4,

Petitioner’s objection to the Report’s finding that Claim Three is without merit. Id.
at 25-27.

5.

Petitioner’s objection to the Report’s finding that Claim Four is without merit. Id.
at 27-33.

6.

Petitioner’s objection to the Report’s finding that Claim Five is without merit. Id.
at 33-34.

7.

Petitioner’s objection to the Report’s finding that Claim Six is without merit. Id. at
27-33.

8.

Petitioner’s objection to the Report’s finding that Claim Seven is without merit. Id.
at 34-43.

9.

Petitioner’s objection to the Report’s finding that Claim Eight is without merit. Id.
at 43-52.

10.

Petitioner’s objection to the Report’s finding that Claim Nine is without merit. Id.
at 34-43.

Upon review, these objections merely expand upon and reframe arguments already made
and considered by the Magistrate Judge in her Report, or simply disagree with the Report’s
conclusions. “It is improper for an objecting party to . .. submit [] papers to a district court which

2

Case: 0:18-cv-60383-BB

Document #: 42 Entered on fled Docket: iu/ua/2uiy

nage 3 or /

Case No. 18-cv-60383-BLOOM/Reid
are nothing more than a rehashing of the same arguments and positions taken in the original papers
submitted to the Magistrate Judge. Parties are not to be afforded a ‘second bite at the apple’ when
they file objections to a [Report and Recommendations].” Marlite, Inc. v. Eckenrod, No. 10-23641CIV, 2012 WL 3614212, at *2 (S.D. Fla. Aug. 21, 2012) (quoting Camardo v. Gen. Motors
Hourly-Rate Emps. Pension Plan, 806 F. Supp. 380, 382 (W.D.N.Y. 1992)). Nevertheless, these
objections have been considered and are overruled.
Petitioner also objects to the Report’s recommendation that Claim One, alleging that the
trial court erred in admitting hearsay evidence under the excited utterance exception, be denied as
meritless. Petitioner argues that the Report based its analysis on the doctrine of forfeiture by
wrongdoing, which is not recognized under Florida law. ECF No. [39] at 4-23. In the Report,
however, Judge Reid specifically finds that, although the admission of the hearsay evidence in
question does not violate the federally recognized forfeiture by wrongdoing doctrine, “even if the
forfeiture doctrine did not apply to [the admitted hearsay] statements, the testimony still would
have been properly admitted” under the excited utterance exception to the hearsay rule. ECF No.
[36] at 27-28. Thus, while this Court disagrees that the Report applied the incorrect standard in
evaluating Claim One, it is evident that this Claim was not evaluated solely under the doctrine of
forfeiture by wrongdoing. Petitioner’s objection is without merit and is overruled.
Similarly, Petitioner objects to the Report’s recommendation that Claim Two, regarding
improper prosecutorial comments, should be denied. Petitioner argues that this Claim was
reviewed under an improper standard of review for prosecutorial misconduct. ECF No. [39] at 24.
Specifically, Petitioner takes issue with the Report’s statement that the trial court instructed the
jury that counsels’ opening and closing statements were not evidence and that they should only

3

Case: 0:l8-cv-60383-BB

Document #: 42 Entered on FLSD Docket: 10/08/2019

Page 4 of 7

Case No. 18-cv-60383-BLOOM/Reid
consider evidence presented at trial in rendering their verdict. Id. This statement, however, is not
reflective of the standard of review that the Report employed in making its recommendation.
Instead, the Report correctly set forth the relevant standard for prosecutorial misconduct:
The standard for federal habeas corpus review of a claim of prosecutorial
misconduct is whether the alleged actions rendered the entire trial fundamentally
unfair. Donnelly v. DeChristoforo, 416 U.S. 637, 642-45 (1974); Hall v.
Wainwright, 733 F.2d 766, 733 (11th Cir. 1984). In assessing whether the
fundamental fairness of the trial has been compromised, the totality of the
circumstances are to be considered in the context of the entire trial, Davis v. Zant,
36 F.3d 1538, 1551 (11th Cir. 1983). “Such a determination depends on whether
there is a reasonable probability that, in the absence of the improper remarks, the
outcome of the trial would have been different.” Williams v. Weldon, 826 F.2d
1018, 1023 (11th Cir. 1988).
ECF No. [36] at 29-30. Thus, Judge Reid applied the correct standard of review and Petitioner’s
objection is overruled.
Petitioner also objects to the Report’s recommendation to deny Claim Six, which alleges
that Petitioner’s counsel was ineffective for failing to object to a police officer’s identification of
Petitioner’s voice, resulting in the admission of Petitioner’s prejudicial prison calls, because the
State failed to establish the identity of the speaker on the call. ECF No. [39] at 27-33. In particular,
Petitioner argues that police officers may not testify on issues of voice identification when they do
so in their official capacity “because it leads the jury to believe that the witness is more credible
because they are a police officer.” Id. at 27.2 The Report, however, correctly states the general rule

2 The cases Petitioner cites in support of his argument are inapposite because they all involved law
enforcement officer testimony that either improperly asserted opinions as to defendants’ identities without
any personal knowledge or implicated defendants’ prior criminal history. See Evans v. State, 111 So. 3d
1219 (Fla. 2015), receded from in, Johnson v. State, 252 So. 2d 1114, 1118 (Fla. 2018); Day v. State, 105
So. 3d 1284 (Fla. 2d DCA 2013) (police identification testimony clearly implicated defendant’s prior
criminal history); Charles v. State, 79 So. 3d 233 (Fla. 4th DCA 2012) (officer’s identity testimony, not
based on any personal knowledge, invaded the fact-finding province of the jury); State v. Cordia, 564 So.
2d 601 (Fla. 2d DCA 1990) (approving police’s identification testimony based on personal knowledge);
Hardie v. State, 513 So. 2d 791 (Fla. 4th DCA 1987) (same). These cases are not applicable where, as here,
the officer identified Petitioner’s voice on prison calls based on his familiarity with Petitioner’s voice from
their prior interactions during the officer’s investigation in the instant case. See Johnson, 252 So. 3d at 1117
4

Case: 0:18-CV-6U383-BB

Document #: 42 tnterea on i-lbu uocKet: iu/u8/2uiy

page s

Case No. 18-cv-60383-BLOOM/Reid
regarding voice identification: “Florida courts have consistently allowed law enforcement officers
to identify the voice of a defendant where the officer has gained familiarity with the voice,” when
that familiarity was acquired through interactions with a defendant during an ongoing criminal
investigation. ECF No. [36] at 42 (quoting Johnson, 252 So. 2d at 1118). Moreover, the officer’s
challenged identification testimony corroborated testimony from the prison’s Detention
Communications Coordinator, who detailed the number of prison calls made to Lauren Glushko
— Petitioner’s girlfriend — using Petitioner’s account. Id. Therefore, Petitioner’s objection is
without merit and is overruled.
Petitioner further objects to the Report’s finding that he failed to demonstrate the existence
of any factual disputes that would warrant an evidentiary hearing. ECF No. [39] at 51-52. This is
an objection to the Report’s ultimate conclusion and Petitioner has failed to identify any factual
disputes in existence. Thus, the objection is improper and must be overruled.
Lastly, Petitioner objects to the Magistrate Judge’s conclusion that Petitioner is not entitled
to a certificate of appealability. Id. at 52-53. Because the Court agrees with Judge Reid’s analysis
and conclusions, and further determines that all of Petitioner’s objections are without merit, the
Court agrees that a certificate of appealability should not be issued. Petitioner’s final objection is,
therefore, also overruled.
The Court has conducted a de novo review of Judge Reid’s Report, the record, the
applicable law, and is otherwise fully advised. See Williams v. McNeil, 557 F.3d 1287,1291 (11th
Cir. 2009) (citing 28 U.S.C. § 636(b)(1)). Upon review of the record and the Report, the Court
finds Judge Reid’s Report to be well reasoned and correct. The Court agrees with the analysis in

(“When a witness is previously familiar with a defendant, they are permitted to identify the voice of the
defendant as a lay witness.”).
5

ot

t

Case: 0:l8-cv-60383-BB

Document#: 42 Entered on FLSD Docket: 10/08/2019

..........

Page 6 ot 7

Case No. 18-cv-60383-BLOOM/Reid

Judge Reid’s Report and concludes that Plaintiffs Petition must be dismissed for the reasons
explained therein. The Court further concludes that an evidentiary hearing is not necessary to
resolve the Petitioner’s constitutional claims.
Accordingly, it is ORDERED AND ADJUDGED as follows:
1. Judge Reid’s Report and Recommendations, ECF No. [36], is ADOPTED.
2. Petitioner’s Objections, ECF No. [39], are OVERRULED.
3. Final Judgment is entered in favor of Respondent.
4. The Petition for Habeas Corpus Relief, ECF No. [1], and the corresponding
Amended Petition for Habeas Corpus Relief, ECF No. [10], are DENIED. No
Certificate of Appealability shall be issued.
5. To the extent not otherwise disposed of, any scheduled hearings are CANCELED,
all pending motions are DENIED as moot, and all deadlines are TERMINATED.
6. The Clerk of Court is directed to CLOSE this case.
DONE AND ORDERED in Chambers at Miami, Florida, on October 8,2019.

BETH BLOOM
UNITED STATES DISTRICT JUDGE
Copies to:
The Honorable Lisette Reid
Counsel of record
Eric Lucas
Okeechobee Correctional Institution
Inmate Mail/Parcels

6

Case: 0:18-cv-60383-BB

Document #: 42 Entered on FLSD Docket: io/U8/20iy

page ( ot (

Case No. 18-cv-60383-BLOOM/Reid
3420 NE 168th Street
Okeechobee, FL 34972

7

Additional material
from this filing is
available in the
Clerk's Office.

